<html>
<title> - MILITARY CONSTRUCTION APPROPRIATIONS FOR FISCAL YEAR 2004</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
       MILITARY CONSTRUCTION APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              


                        TUESDAY, APRIL 29, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 4:35 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Kay Bailey Hutchison (chairman) 
presiding.
    Present: Senators Shelby, Stevens, Domenici, Feinstein, and 
Landrieu.

                         DEPARTMENT OF DEFENSE

STATEMENT OF JAMES L. JONES, JR., GENERAL, USMC, 
            COMMANDER, UNITED STATES EUROPEAN COMMAND
ACCOMPANIED BY LEON J. LAPORTE, GENERAL, USA COMMANDER, UNITED NATIONS 
            COMMAND, COMMANDER, REPUBLIC OF KOREA-UNITED STATES 
            COMBINED FORCES COMMAND, AND COMMANDER, UNITED STATES 
            FORCES KOREA

           OPENING STATEMENT OF SENATOR KAY BAILEY HUTCHISON

    Senator Hutchison. Thank you very much for being here. I am 
very pleased to have both of our distinguished witnesses here. 
We have tried to get together, but there have been a few things 
going on the planet that have kept us from hearing from you. 
But, frankly, I think the time has been well spent, because I 
am very pleased with the prepared statements that I have seen 
about the efforts that you are making on overseas bases, and 
this has been a priority of our Military Construction 
Subcommittee really for the last 4 years. We will look at 
overseas military basing in two key theaters of operation 
today.
    The fiscal year 2004 military construction request includes 
over $1 billion in spending for overseas facilities. More than 
70 percent of that is in Europe and Korea. The Administration 
has requested $535 million for U.S. bases in Europe, including 
$288 million in Germany and $173 million for bases in Korea. At 
the same time, new threats, a changing international political 
environment, and efforts to transform the structure of our 
military forces are leading the Defense Department to 
reconsider how we deploy forces overseas and where those forces 
will be located.
    The military construction challenge is twofold. In the 
near-term, during the time it takes to determine future 
security needs, the challenge is to ensure that expenditures 
are not wasted on facilities which may be abandoned in the 
future. The long-term challenge is to ensure far-reaching 
decisions about how to deploy forces overseas makes sense.
    Congress directed the Defense Department to submit a report 
on its overseas-basing master plan by April 1, 2002. The 
Defense Department is still studying the issue and has not yet 
submitted that report. This afternoon, Senator Feinstein and I 
introduced legislation that would establish an independent 
commission to review the overseas military structure of the 
United States and advise Congress. We look forward to passing 
that legislation this year.
    We are fortunate to have with us today the commanders of 
U.S. Forces in Europe and Korea, where so much of our military 
construction dollars are spent. Both of you have been working 
hard to transform our overseas basing from a Cold War structure 
to one more suited to the military challenges of the 21st 
century.
    I really appreciate the meetings we have had, the efforts 
you have made. Your staffs have been working with our staff, 
and I am very satisfied that we are going in the right 
direction for the efficient use of our taxpayer dollars, making 
sure we have the information about the long-term goals before 
we spend military construction dollars this year. And I also 
appreciate that the Department really stopped spending the 2003 
dollars until they were also allocated for what we are now 
calling ``enduring bases.''
    So, with that, I want to ask Senator Feinstein, the Ranking 
Member, to also make remarks that she might have, and I want to 
particularly say what a great working relationship Senator 
Feinstein and I have. She has traveled overseas to bases. I 
have traveled overseas to bases. And I think from what we have 
both learned, we have come to the similar conclusions that we 
need to look at those overseas bases, try to fit them within 
the structure of our forces as projected for the future and try 
to maximize the efficiency of our taxpayer dollars.
    Senator Feinstein.

                 STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. Thanks very much, Madam Chairman. Your 
comments are reciprocal. As you said earlier this morning, we 
have both been Chairs, and we have both been Ranking Members of 
this Committee, and I think, in the process, have developed a 
very positive working relationship--I, for one, very much 
appreciate that--and, in addition, a friendship which means a 
lot to me.
    You know, Madam Chairman, I have had the opportunity to 
visit both the Korean Command, under General LaPorte, in 
December, the European Command, unfortunately, not under 
General Jones, but under General Ralston, a little earlier, and 
had an opportunity to talk with both of them. And I just want 
to repeat something I said to my staff on the way coming in to 
this meeting.
    One of the really great, I think, illuminating findings 
that I have had since I have been in the United States Senate 
is really how fine the command leadership of our military is. 
And I have had the opportunity to meet four-stars, to talk with 
them, to see men, really, at the apex of their military 
careers, particularly note those who are open to comments, 
those who are not. But I guess what I want to say is how well 
served I think our Nation is by both of you and by our other 
four-stars. You are very impressive people, each in your own 
right; each different, but both highly committed, I think 
highly intelligent. It has been a very special experience for 
me, and, on a personal note, I want you both to know that.
    Madam Chairman, your timing could not be more on target, 
considering that the Department of Defense submitted a budget 
amendment to the President only yesterday that proposes to 
rescind, delete, or realign more $500 million of fiscal 2003 
and fiscal 2004 overseas military construction projects.
    I had the opportunity to talk with both generals in my 
office yesterday. I am very impressed with their commitment to 
streamlining and improving the efficiency of the United States 
military presence overseas. Their efforts to reshape the 
military forces within their commands have potential to produce 
significant efficiencies, increase responsiveness, and enhance 
the national security of the United States.
    These generals are undertaking this task at a particularly 
sensitive time in our relations with our allies overseas. I 
think it is important to repair the damage that has been done 
to the image of America overseas and to get these relationships 
back on track. Both General Jones and General LaPorte have 
assured me that they are committed to working with our allies 
and strengthening our ties to Europe and Korea, and I want to 
really commend them for these efforts.
    So thank you for scheduling this hearing, Madam Chairman, 
and I look forward to hearing from these distinguished 
witnesses.
    Senator Hutchison. Thank you, Senator Feinstein.
    Senator Stevens.

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Thank you, Madam Chairman.
    I welcome each of you, Generals. I consider each of you to 
be close friends through the years we have worked together.
    I regret to tell you, I am going to have to go to a meeting 
with the Members of the House Appropriations Committee here 
soon to talk about allocations for 2004, and so I will not be 
able to stay and ask questions. But I do intend to stay and 
listen to you as long as I can.
    I welcome the initiatives, as both of the other Senators 
have said, that have been indicated to me through my staff that 
your people are about ready to present. And I think it is very 
timely for us to consider such initiatives, and I look forward 
to working with you on them.
    Thank you very much.
    Senator Hutchison. Thank you, Mr. Chairman.
    General Jones, I would like to ask you to speak first, and 
followed then by General LaPorte.

                             EUCOM OVERVIEW

    General Jones. Thank you, Madam Chairman, and thank you for 
your kind opening remarks. And, Senator Feinstein, thank you 
for your very gracious remarks. I know I do not want to speak 
for General LaPorte, but I know all of us who are privileged to 
lead the tremendous young men and women in the uniform of the 
United States today take a great pride in that privilege, and 
we are so proud of everything they do day in and day out. That 
makes our job much easier.
    And, Senator Stevens, thank you for taking time to be here 
today, and thank you for your continual support of our Nation's 
Armed Forces around the globe and the important work that they 
are privileged to do every day of the year.
    I am very pleased to appear before you to present testimony 
on the very important subject of the fiscal year 2004 Military 
Construction Request for the United States European Command. As 
each of you know full well, the area of responsibility of EUCOM 
has recently been increased to include 93 countries, a net 
increase in the land mass of 16 percent, and a net increase of 
28 percent on the seas, as a result of the revisions to the 
Unified Command Plan.
    As you also know, during the last decade our Nation reduced 
the numbers of Americans in uniform by roughly 40 percent while 
transforming the force into a 21st century capability that 
during these difficult times has made all of us extremely 
proud. In my 36 years of active duty, I have never been prouder 
of what our forces represent, not just in terms of combat 
capability, but especially in terms of what such a force means 
for the collective future of nations who are prepared to defend 
freedom wherever it might be threatened. It is not only a force 
that will win any future conflict; it is also one which will 
deter and prevent future conflicts through its positioning and 
through its engagement strategy around the world.
    I thank the Committee, the Members, and the staff, alike, 
for the attention given to the infrastructure and the quality 
of life of our men and women who serve in the vast European, 
Africa, and Near-Eastern theater. I pledge continued 
cooperation and active dialog on these important issues.
    Senator Feinstein, you mentioned my predecessor, General 
Joe Ralston, to whom I am particularly grateful for a wonderful 
turnover of this all-important command. He is one of our 
Nation's most distinguished modern-day warriors. I thank him 
for his leadership and friendship as I assumed the 
responsibility of the command. No one could have been more 
gracious, and no one could have done more to make it a better 
experience than did General and Mrs. Ralston. The Nation will 
miss them in its active-duty ranks.

                          EUCOM TRANSFORMATION

    Much has been said about the ongoing transformation of our 
Nation's Armed Forces. The United States European Command's 
Strategic Transformation Campaign Plan Proposal is based on 
several key assumptions, and they are as follows.
    The United States desires to maintain its current position 
as a Nation of global influence through leadership in the 
efficient and effective application of military, economic, and 
diplomatic power.
    The United States remains committed to its friends and 
allies through its commitment to global organizations and 
institutions, and supports treaties and international 
agreements to which it is a signatory.
    The United States remains committed to a global strategy, 
the cornerstone of which is forward-based and forward-deployed 
forces which contribute to the first line of defense, peace, 
stability, and world order.
    The United States supports in-depth transformation of its 
Armed Forces and of its basing structure, as required, in order 
to respond to 21st century threats and challenges.
    The United States will continue to seek ways to mitigate or 
offset obstacles posed by 21st century global sovereignty 
realities through a reorientation of its land, sea, air, and 
space assets.
    The United States recognizes that the current concept and 
disposition of U.S. basing within the European Command may not 
adequately support either the strategic changes attendant to an 
expanded NATO alliance or the national requirements of a 
rapidly changing area of responsibility.
    And finally, that the United States will seek to preserve 
those assets which are of strategically enduring value to its 
missions, goals, and national interests, so as their location 
measurably contributes to our global strategy, the NATO 
alliance, and our bilateral engagements in theater.

                     STATUS OF EUCOM INFRASTRUCTURE

    I have been in my current office for approximately 3 
months, and each day has been a great learning experience. With 
regard to military construction, we find ourselves at a 
crossroads despite impressive theater reforms over the past 10 
years, which, in and of themselves, produced a 66 percent 
reduction in the number of our European installations. We find 
ourselves retaining an inventory of aging facilities, many of 
which should be removed from our inventory.
    In determining the current value of our facilities in 
Europe, we used our Theater 2002 Overseas Basing Requirements 
Study, which has identified that 80 percent of all of our 
installations are of critical mission value as being Tier I 
facilities. Another 14 percent were labeled as very important 
to the theater's mission, or Tier II. Finally, 6 percent were 
deemed to be non-critical to the theater, or Tier III.
    We are using this study as a benchmark for our continuing 
evaluations of the needs of the European theater in the 21st 
century. Our needs will clearly be different than they are 
today. Determining how different is the challenge.
    At present, we face four challenges with regard to 
infrastructure. The first is to quickly and efficiently remove 
unneeded Tier II and Tier III installations from our inventory. 
This is proceeding satisfactorily, but we need to quicken the 
pace. No monies in the fiscal year 2004 request will be 
expended for these installations. This represents approximately 
20 percent of the total number of our installations in Europe.
    We need to reevaluate all Tier I facilities with regard to 
their modern suitability for supporting our alliance in our 
national engagement strategies in the new world order, or, as 
some say, ``new world disorder.'' Each European component is at 
work redefining its future basing needs while engaging with 
parent service headquarters in the context of how to obtain the 
maximum effect, theater-wide, in the pursuit of our objectives. 
This is work in progress, and it is my expectation that we 
should soon be able to better see our way ahead in this very 
important matter. We are sensitive to the Committee's 
legislative calendar, and we will keep Members and staff 
apprised in real time of our progress in this study.
    The asymmetric world and its associated threats, NATO's own 
invitation to seven new members, the deepening crises that 
threaten to engulf much of Africa, and the emergence of 
ungoverned regions from which narco-trafficking, criminality, 
and terrorism will be exported to the developed Nations, 
compellingly argues for some new basing paradigms, which will 
be different from our strategy of the past century. The key 
will be to preserve those installations that are of critical 
utility to our future goals and missions.
    Our 20th century success in developing a free and 
prosperous Western Europe has made it more difficult and more 
expensive to train our military forces. Urbanization has 
brought cities to the edge of our bases both at home and in 
Europe. Despite having been successful protectors of the 
environment on our bases for the last half of the 20th century, 
we now face concerted efforts to limit essential military 
training at sea, in the air, and on land. It is a major 
problem, and it must be addressed both at home and abroad.

                            EFFICIENT BASING

    The 21st century requires that we not only identify and 
maintain our most critical strategic infrastructure, it further 
requires that we become more agile, more expeditionary, and 
more efficient in our basing efforts on land, at sea, in the 
air, and in space. Our new bases should have a transformational 
footprint, be geostrategically placed in areas where presence 
yields the highest return on investment, be able to both 
contract and expand, as required, and should be constructed in 
such a way as to take advantage of our developing ability to 
rotationally base our forces coming from different parts of the 
world. It will also capitalize on the effectiveness of those 
forces which need to be continually and permanently stationed 
in the critical locations.
    In Europe, we will need a robust mix of each to be 
effective in the future, and we are at work to determine the 
proposals for such considerations. For example, flexible, 
forward-operating bases and smaller forward-operating locations 
and new sites for our pre-positioned equipment to augment our 
permanent strategic presence will prove to be extremely useful 
to our future requirements. We will no longer be required to 
build the small American cities of the 20th century to achieve 
our strategic goals.

                           PREPARED STATEMENT

    Our fiscal year 2004 request is predicated upon the 
assurance that we will not expend resources except where 
strategically warranted, that we will close unneeded facilities 
as efficiently and as quickly as possible, that we will 
identify those permanent facilities which have enduring 
strategic value for the future, and that we will look at 
better, more accessible, and more affordable training areas 
throughout our AOR; that we will begin to reshape a portion of 
our theater infrastructure to better capitalize on the utility 
of rotational forces; and that we will develop newer basing 
models which will produce greater strategic effect resulting in 
a more peaceful theater in the 21st century.
    Thank you, Madam Chairman, for the opportunity to present 
testimony before your Committee. I look forward to your 
questions.
    [The statement follows:]

           Prepared Statement of General James L. Jones, Jr.

Introduction
    Madam Chairman, Senator Feinstein, distinguished Members of the 
Committee; it is my privilege to appear before you as Commander, United 
States European Command (USEUCOM), to discuss the very exciting efforts 
underway in the European Theater to respond to the challenges and 
opportunities of the 21st Century. On behalf of the men and women in 
USEUCOM who proudly serve this Nation, and their families, I want to 
thank the committee members and staff for your unwavering support over 
this past year. Your efforts have provided us with the resources for 
mission success and have enabled us to do our part in protecting our 
democracy and in contributing to the security of our Nation. Your 
dedication to improving our important facilities and the quality of 
life of our men and women in uniform is both recognized and greatly 
appreciated.

The USEUCOM Area of Responsibility
    USEUCOM's area of responsibility encompasses a vast geographic 
region covering over 46 million square miles of land and water. The new 
Unified Command Plan, effective 1 October 2002, assigns USEUCOM an area 
of responsibility that includes 93 sovereign nations, stretching from 
the northern tip of Norway to the southern tip of South Africa, and 
from Greenland in the west to Russia's distant eastern coastline 
(Enclosure 1). The very title ``U.S. European Command'' is somewhat of 
a misnomer and does not fully capture the vastness of our area of 
operations.
    The astonishing diversity of our area of responsibility encompasses 
the full range of human conditions: some nations are among the 
wealthiest of the world, while others exist in a state of abject 
poverty; some are open democracies with long histories of respect for 
human liberties, while others are struggling with the basic concepts of 
representative governments and personal freedoms. For example, Africa, 
long neglected, but whose transnational threats, ungoverned regions, 
and abject poverty are potential future breeding grounds for networked 
non-state adversaries, terrorism, narco-trafficking, crime, and sinking 
human conditions, will increasingly be factored into our strategic 
plans for the future. The resulting change in the security environment 
has driven a change in our strategic orientation with increased 
emphasis eastward and southward.

Historical Setting
    U.S. Forces in Europe, in concert with our NATO Allies, played a 
pivotal role in bringing about the end of the Soviet Union and the 
Warsaw Pact. The dramatic collapse of the Soviet Empire brought 
tremendous opportunities for the former Warsaw Pact states. It also 
brought unprecedented uncertainty for NATO and the U.S. European 
Command. For nearly a decade after the end of the Cold War, funding for 
U.S. European Command infrastructure was virtually non-existent.
    The existing uncertainty of the future size and makeup of U.S. 
Forces in Europe led to a long period of significantly reduced funding 
for infrastructure at European bases (Enclosure 2). Assuming that we no 
longer required the same robust presence as that of the Cold War era, 
we down sized our force structure and the number of military facilities 
in theater. Since the fall of the Berlin wall in October 1989, USEUCOM 
has undergone a reduction in forces of approximately 66 percent, from 
248,000 (in 1989) to 109,000 (in 2002). We have closed 566 
installations over the past decade, along with over 356 other sites and 
training areas. This reduction equates to a 70 percent shift in 
personnel and facilities compared to Cold War Era peaks. The scope and 
rapidity with which force levels and structure were reduced in USEUCOM 
was an extraordinary accomplishment.
    During this turbulent time, my predecessors adjusted our force 
disposition in keeping with the requirements of our national strategy. 
Their efforts resulted in the beginning of our ``efficient basing'' 
programs and a number of alternative funding programs that have 
produced tangible results in our effort to provide adequate, affordable 
housing and facilities for our men and women in uniform. Although the 
end of the Cold War promised a much more stable and secure Europe, the 
scope of USEUCOM's mission grew as the newly independent states 
struggled to define their place in a free Europe. In the same period, 
USEUCOM experienced a dramatic decline in the number of installations 
and a substantial reduction and realignment of our force structure in 
theater. Consequently, we now have a greater reliance on our forward 
basing capabilities than ever before. And, I believe forward based and 
forward deployed forces will be even more important as we confront the 
security challenges of the next century.

The New Security Environment
    Today, we find ourselves at the crossroads of two centuries. While 
the bipolar security environment of the 20th Century shaped our 
command, and defined our mission, the 21st Century requires that we 
depart from the clearly defined role of territorial defense. As we shed 
the limitations of 20th Century warfare, we are emerging from a 
doctrine of ``attrition'' warfare to ``maneuver'' warfare, from 
symmetrical to asymmetrical response options, from the principle of 
mass to the principle of precision, and from large and vulnerable 
military stockpiles to a revolutionary integrated logistics concept. We 
are changing from the traditional terrain-based military paradigms to 
effects-based operations, in order to prepare for a new set of security 
challenges.
    The developed world now faces threats from sub-national or supra-
national groups; threats that are based on ideological, theological, 
cultural, ethnic, and political factors. Our new adversaries do not 
recognize international law, sovereignty or accepted norms of behavior. 
These are the challenges of the new world ``disorder.'' They demand new 
approaches and different metrics by which we allocate resources and 
develop strategies for the protection of our national interests and the 
future security of our environment.
    Our NATO allies have also recognized the dramatic changes in the 
European security environment and have responded with the most 
significant changes to the Alliance's strategic direction since its 
founding. At the 1999 Washington Summit, members approved the new 
strategic concept, defining the range of threats the Alliance would 
have to confront, and identified a broad range of new capabilities 
necessary to meet them. The same year, three new states joined the 
Alliance as the expansion eastward began. The Washington Summit set the 
stage for an even bolder expansion in 2002. During the historic Prague 
Summit last year, the Alliance again expanded, this time inviting seven 
new members to join; Latvia, Lithuania, Estonia, Romania, Bulgaria, 
Slovenia, and Slovakia (Enclosure 3). Equally significant was NATO's 
commitment to transform its military capabilities, command 
arrangements, and operational concepts. The endorsement of the NATO 
Response Force provides political guidance for the Alliance to develop 
an agile and tailorable joint military force to respond to the full 
spectrum of crisis, both within and outside NATO's boarders. NATO's 
strategic reorientation and renewed focus on relevant military 
capabilities will enhance USEUCOM's capability and ensure full 
interoperability with our most important allies as we transform our 
forces.
    To respond to the dangerous and unpredictable threats of the 21st 
Century, we are developing a strategy that matches our resources to 
needed capabilities. We shall continue to refine our strategy and 
recommend a basing plan that enhances our ability to project our 
forces, support sustained operations, and conduct engagement activities 
in the most remote regions of our theater, as required. This plan will 
reflect the tremendous importance of our main operating bases as 
strategic enablers to support operations both outside and inside our 
area of responsibility. In achieving our goals we will begin the 
process of an in-depth theater transformation that will yield a greater 
return on our strategic investment.

USEUCOM Transformation Assumptions
    Our efforts to transform USEUCOM's infrastructure are based on four 
principal assumptions. First, that the United States desires to 
maintain its current position as a Nation of global influence through 
leadership and the judicious application of military, economic and 
diplomatic instruments of power. Secondly, that the United States will 
remain committed to supporting its friends and allies through its 
involvement in global institutions and in support of treaties and 
international agreements to which it is a signatory. Thirdly, that the 
United States, by virtue of its critical contribution to the world 
order of the 20th Century, remains committed to a global engagement 
strategy. The military vanguard of this strategy will be found in our 
forward based, and forward deployed forces, which contribute the first 
line of defense to promote peace, stability, and order in our world. 
Finally, that the United States will continue to pursue in depth 
transformation of the Armed Forces. Changing our basing strategy to 
respond to the dramatically different challenges of the new century is 
a key element of this transformation.

Main Areas of Emphasis
    The challenges presented by the new security environment and 
USEUCOM's commitment to national security interests, coupled with the 
opportunities made possible by transformed forces and infrastructure, 
suggest three areas of focus: a critical evaluation of our existing 
infrastructure; a reassessment of how we assign and deploy forces to 
our theater; and new operational concepts to take advantage of 
transformational capabilities and concepts.
    To begin with, we are critically evaluating every facet of our 
European Theater footprint. The continued reduction/realignment of 
``legacy'' infrastructure that was justified by the Cold War strategy 
of the 20th Century is central to our conceptual transformation. We 
will re-orient some of the capability of our forces in a manner that 
better reflects our expanding strategic responsibilities and the 
emergence of new regional and global realities.
    Next, we are reassessing how we deploy and assign forces to the 
European Theater. We will use forces that are joint, agile, flexible, 
and highly mobile. The combination of permanent and rotational forces, 
accompanied by an expeditionary European component construct, is better 
suited to meet the demands of our fluid, complex, multi-faceted, and 
dangerous security environment.
    Additionally, we are adopting operational concepts that capitalize 
on innovation, experimentation, and technology in order to achieve 
greater effect. We are witnessing a shift from our reliance on the 
quantitative characteristics of warfare (mass and volume), to a new 
family of qualitative factors. Today, warfare is characterized by 
speed, stealth, precision, timeliness, and interoperability.
    The modern battlefield calls for our forces to be lighter, less 
constrained and more mobile, with a significant expansion in capability 
and capacity. The principle of maneuver, attained by leveraging 
technologies, reduces a unit's vulnerability while increasing its 
lethality and survivability. High-speed troop lift (on land and sea), 
precision logistics, in-stride sustainment, and progressive Command and 
Control (C2) architectures are strategic enablers that translate into 
power projection.

USEUCOM as a Strategic Enabler
    With our forward presence, bases in USEUCOM provide a springboard 
from which U.S. forces are able to rapidly support efforts beyond our 
area of responsibility. In addition to being an ``ocean closer,'' 
USEUCOM enjoys a robust and secure transportation network in Germany, 
Belgium and the Netherlands that provides a tremendous power projection 
capability and provides our Nation immense capability and flexibility 
to carry out our National Security Strategy. Nowhere is this better 
demonstrated than in the ongoing operations in Afghanistan and Iraq.
    USEUCOM's role and contributions to Operation ENDURING FREEDOM are 
significant, and go far beyond simply providing intermediate staging 
facilities. Our transportation planners have extensive experience with 
some of the best ports, rail connections, and airfields in the world, 
allowing immense flexibility in carrying out this campaign. For 
example, U.S. Army Europe rapidly established a rail line of 
communication from Bremerhaven, Germany, through Eastern Europe to 
Kabul, Afghanistan, facilitating the efficient movement of bulk 
supplies and heavy equipment. U.S. Air Forces in Europe has flown 
thousands of tons of humanitarian and military supplies into Southwest 
Asia. The Naval Air Station Sigonella and Naval Station Rota provided 
the staging and throughput for the majority of supplies moving south 
and east. The Army's 21st Theater Support Command is fully engaged in 
the effort providing thousands of tons of medical supplies, food, 
blankets, and relief support in this effort.
    The importance of USEUCOM's strategic bases is further demonstrated 
by the support provided to Operation IRAQI FREEDOM. Over 22,000 U.S. 
military personnel from USEUCOM are under the operational control of 
USCENTCOM in support of Operation IRAQI FREEDOM. Most recently, the 
173rd Airborne Brigade from the U.S. Army Southern Europe Airborne Task 
Force (SETAF) traveled 2,200 miles to successfully complete a ``combat 
jump'' into northern Iraq. The capability to successfully deploy SETAF 
is a direct result of the Efficient Basing South initiative. 
Additionally, European-based Patriot Air Defense systems have been 
deployed to Turkey and Israel reassuring these key allies of the United 
States' reliability and concern for their defense.
    European-based U.S. Air Force C-130 aircraft are moving supplies 
and equipment bound for the Iraqi Theater of Operations through Europe. 
Additionally, we are providing advanced basing support to U.S. Central 
Command and U.S. Transportation Command at Burgas, Bulgaria; Constanta, 
Romania; Ramstein and Rhein Main Air Bases, Germany; Souda Bay, Greece; 
Akrotiri, Crete; Aviano, Italy; Moron and Rota, Spain; and RAF 
Fairford, and RAF Mildenhall in the United Kingdom. So far, this 
airlift bridge has moved over 26,165 passengers and 45,188 short tons 
of equipment and provided a departure point for special operations 
aircraft, and bombers, as well as tankers to support a myriad of 
coalition forces.
    In addition to our six main operating bases, four Forward Operating 
Bases were established to support coalition operations. Most 
significantly, our forward presence enabled our B-52s operating from 
RAF Fairford to strike targets in Iraq with half the number of air 
refuelings and two-thirds the quantity of fuel. Ultimately, this 
presence enabled us to double our sortie generation rates by turning 
bombers and crews in 18 hours or less versus 48 hours from locations in 
the U.S. This was crucial to not only to strike assets such as B-52s 
but also for C-17s operating out of Aviano Air Base, Italy, which 
dropped over 1,000 Army airborne troops into Northern Iraq, opening up 
the northern front. Reduced timelines mitigate strains on PERSTEMPO, 
lessen impact on operational assets, and provide commanders greater 
flexibility on the battlefield.
    U.S. Naval bases in Europe provided logistics support to two 
carrier battle groups and one Amphibious Ready Group (ARG) operating 
with the SIXTH Fleet in the eastern Mediterranean. Air wings from these 
two carriers, and cruise missiles from other ships, conducted strike 
and close air support missions into northern Iraq, providing continuous 
air support to Coalition Forces. U.S. Marines from the Amphibious Ready 
Group were inserted into northern Iraq directly from NSA Souda Bay, 
supporting security efforts in that volatile region. Sailors from U.S. 
Naval Forces Europe's Naval Mobile Construction Battalion deployed to 
support force flow preparatory tasks in Turkey and tactical logistics 
support on the battlefield in Iraq alongside units of the 1st Marine 
Expeditionary Force.
    USEUCOM is also actively engaged in the movement and treatment of 
U.S. and allied soldiers wounded or injured in Southwest Asia. 
Casualties are transported to the Regional Medical Center in Landstuhl, 
Germany, and Fleet Hospital EIGHT, a naval expeditionary hospital that 
was set-up at Naval Station Rota, Spain. European-based intelligence 
specialists from every branch of the U.S. Armed Services are providing 
timely, accurate, and actionable intelligence to U.S. Forces engaged in 
combat in Iraq, our commanders and national leaders.
    Theater capabilities are the derivative of operational concepts 
that have been validated through combined and joint exercises. The 
Marine Corps' strategic agility and operational reach capability was 
demonstrated during the Dynamic Mix exercise conducted in Spain last 
year by the 2nd Marine Expeditionary Brigade. The derivative of this 
exercise is Task Force Tarawa, which has played a vital role in the war 
in Iraq. Exercising strategic enablers in theater, such as the Maritime 
Positioning Squadron (MPS) assets of the 2nd Marine Expeditionary 
Brigade, provides valuable lessons, increases efficiencies, and leads 
to operational success.
    The operations in Afghanistan and Iraq highlight USEUCOM's value as 
a strategic enabler and underscore the importance of regional 
engagement. In both operations, new and willing allies made significant 
contributions that resulted in increased operational reach and combat 
effectiveness for U.S. and coalition forces. These same new allies 
offer new and exciting opportunities for training and future basing.

Basing Concepts for the 21st Century
    Semi-permanent expeditionary bases, such as those utilized in 
Operation IRAQI FREEDOM, can more effectively engage and influence the 
stability of the region. Joint Forward Operating Bases such as ``Camp 
Bondsteel'' in Kosovo have proven their merit and demonstrate a visible 
and compelling presence at a fraction of the cost of a larger ``small 
American city'' base, more emblematic of the past. The strategic value 
of establishing smaller forward bases across a greater portion of our 
area of responsibility is significant and would allow us to assign and 
deploy our forces more efficiently.
    Transforming how U.S. forces are based and deployed in the USEUCOM 
area of responsibility will be a difficult process, but one, which is 
absolutely essential. To achieve our goals and meet the new security 
challenges, we must be willing to embrace institutional change and 
accept a shift in our previously understood paradigms. The importance 
of moving this process along quickly is heightened in light of the 
current disposition of our facilities and installations. The average 
age of USEUCOM's 36,435 facilities in our 499 installations is 32 
years. It is worse in family housing, where the average age in U.S. 
Army Europe family facilities, is now 48 years. In U.S. Air Forces in 
Europe, it is 43 years, and in U.S. Naval Forces Europe, it is 35 
years. Due to other pressing requirements, insufficient resourcing and 
modernization, since 1989, has resulted in 19,090 government quarters 
being officially termed ``inadequate.''
    The utilization of a rotational basing model, more flexible and 
along the lines of an expeditionary construct, will complement our 
forward-basing strategy and enable us to reverse the adverse 
proportions of our theater ``tooth-to-tail'' ratio. Rotational forces 
require less theater infrastructure and increase our agility to respond 
to changing environments at significantly lower cost than that 
generally associated with closing and moving bases. In this regard, 
rather than enabling our operations, some of our ``legacy'' bases 
(those that are not strategic enablers), can become modern day 
liabilities as we strive to deal with the security challenges of the 
new century.
    While this may represent a dramatic shift in how USEUCOM operates, 
it is not a foreign concept to our Service Chiefs. The Navy-Marine 
Corps team, for example, has been a predominantly expeditionary force 
since its inception. The Air Force has already created and implemented 
the Expeditionary Air Force model and the Army is in the process of 
creating lighter and more agile forces. Our global presence, of both 
sea-based and land-based units, redistributed more strategically, will 
achieve the desired goals of our National Security Strategy.
    This approach to transformation is not intended to undermine the 
consolidation and revitalization process related to the ``enduring'' 
infrastructure of our vital Strategic Bases. It is a continuum of our 
effort to increase efficiencies and provide greater effectiveness for 
our forces. Through the proper melding of forward basing with new and 
more agile expeditionary components, we will achieve the desired 
capability and the right balance to ensure our effective forward 
presence in the 21st Century.
    With your support, it will be possible to achieve significant 
reforms to our old and costly infrastructure in the near future. We 
have come a long way since the days of the Cold War, yet there is much 
still to do. The process to review our current infrastructure inventory 
and assess its merit through the lens of transformation is already well 
underway.

Theater Basing & Consolidation Efforts
    USEUCOM completed a deliberate and detailed internal review of 
basing requirements and infrastructure that was completed in March 
2002. This study allowed us to develop criteria by which we could 
evaluate our Real Property Inventory and determine those installations 
essential for mission accomplishment. As an example, our study 
determined that 80 percent, or 402 of the existing 499 installations in 
theater, were judged to be of ``enduring'' value (Tier I). This is to 
say, 402 European installations were assessed to be vital to the 
execution of U.S. Strategies, and worthy of regular funding and 
improvement, without which our mission may risk failure. It was 
determined that future military construction expenditures, in support 
of these installations, were both appropriate and necessary. Our fiscal 
year 2004 military construction program focuses on these enduring 
installations deemed ``vital'' by the basing study.
    The study also determined that 14 percent, or 68 of the 499 
installations in theater, were ``important'' to theater operations 
(Tier II). The study further determined that 6 percent, or 29 
installations in theater were of ``non-enduring'' value (Tier III), or 
of ``non vital'' importance to the accomplishment of our missions. Tier 
III installations only receive the minimal sustainment (Operations & 
Maintenance) funding required. They will receive no military 
construction funding. USEUCOM's fiscal year 2004 military construction 
submissions, contained in the President's Budget are only for enduring 
installations.
    This early study enabled us to accurately assess the utility of our 
bases in theater and provided us a useful benchmark to align our future 
infrastructure requirements to our new strategy. Our budget request 
reflects the relevant points from this study, along with our ongoing 
efforts to establish a force structure and basing plan that more aptly 
meets the challenges of the current security environment. Toward that 
end we are working in the Secretary of Defense's broader study on, 
``Integrated Global Presence and Basing Strategy,'' which will ensure 
that USEUCOM's footprint is properly sized and structured to meet our 
changing national security interest.
    Much of the groundwork for the study was well underway in 2000, 
when the U.S. European Command established a formal theater basing 
working group. This group brought together the basing plans of each of 
our Service Components to address issues that cross Service lines and 
best posture our in-theater forces to meet current and emerging 
threats. The release of the Quadrennial Defense Review provided the 
working group with the force structure information needed to pursue an 
appropriate basing strategy. As we restructure our footprint in USEUCOM 
we are considering future capabilities like the Army's Stryker Brigade 
Combat Team. Design and planning for the Stryker Brigade Combat Team 
conversion is underway and is reflected in U.S. Army Europe's input to 
the Future Years Defense Program.
    It is important to understand the criteria used to evaluate basing 
strategies. The March 2002 study met the strategy requirements set 
forth for that study which was primarily for fixed forces. A fixed 
force strategy is very different from a strategy using rotational 
forces working and training out of semi-permanent expeditionary bases. 
We have begun a new evaluation of our basing requirements, using 
different criteria, with an operational premise of employing some 
rotational units in theater. USEUCOM's service components are leading 
the way in this important effort and are the agents of change as we 
continue with this vital transformation.

Military Construction Requests by Service Components
    Rather than invest significant sums of money into all of our 
existing facilities, some of which may not be suited to our future 
basing needs, nor to our force requirements, we can seize the moment to 
apply the newer metrics of transformation to determine how best to 
spend, and where best to spend, our resources. The process has begun 
with the reshaping of our fiscal year 2004 military construction 
requirements.
    USEUCOM submitted a realigned MILCON program, reducing the number 
of requested projects from 50 to 37, a reduction of $164.20 million, to 
the Secretary of Defense. Theater components are realigning four non 
line item family housing projects with their services for a combined 
value of $70.90 million. We have requested that five projects for 
enduring installations, with a total value of $57.90 million, be added 
to the military construction program. Together, these adjustments will 
help set the conditions for successful transformation.

            U.S. Army Europe (USAREUR)
    U.S. Army Europe has the greatest amount of infrastructure in the 
theater and in order to ensure funding is concentrated on only enduring 
installations; USAREUR's military construction program has been 
adjusted from eleven line item projects to five, a reduction from 
$177.60 million to $121.70 million. USAREUR is working with the 
Department of the Army to realign three non-line item family housing 
military construction projects with a value of $49.90 million to 
installations that are enduring. The adjustments to the fiscal year 
2004 program will reduce older static infrastructure and improve the 
efficiency of the enduring bases.
    Consistent with the objectives of our earlier basing study, 
USAREUR's Efficient Basing East is an ongoing initiative to enhance 
readiness, gain efficiencies, and improve the well being of 3,400 
soldiers and 5,000 family members by consolidating a brigade combat 
team from 13 installations in central Germany to a single location at 
Grafenwoehr, Germany, further east. Executing this initiative will 
enhance command and control, lower transportation costs, enable better 
force protection, improve access to training areas, eliminate over 5 
million square feet of inventory, and reduce base operations costs by 
up to $19 million per year.
    U.S. Army Europe's other major basing initiative, Efficient Basing 
South, is likewise consistent with established basing objectives and is 
well into the execution phase. Efficient Basing South, which added a 
second airborne battalion to the 173rd Airborne Brigade in Vicenza, 
Italy, provides U.S. European Command with enhanced forced entry 
capabilities, increased flexibility and more efficient use of ground 
combat troops by increasing the Army's tooth-to-tail ratio. It 
addresses the theater requirement for additional light-medium forces, 
which in concert with other support modules, will deploy as part of the 
Immediate Reaction Force. The second battalion, reached full strength 
in March 2003, and recently deployed to Northern Iraq.
    In support of the Efficient Basing South initiative, the Defense 
Department's submission to the President's fiscal year 2004 budget 
includes a critical $15.5 million Joint Deployment Processing Facility 
at Aviano Air Base, Italy, to support the 173rd Airborne Brigade's 
rapid deployment mission with a heavy drop rigging facility. A project 
we have asked consideration for funding this year is a $13 million 
Personnel Holding Area to provide our troops with cover and space to 
check parachutes, weapons, and equipment before boarding their airlift.

            U.S. Air Forces in Europe (USAFE)
    U.S. Air Forces in Europe are also assessing its basing strategy in 
the theater, looking east and south to optimize access, 
interoperability, cooperation, and influence. This strategy relies on 
permanent bases, necessary to provide mobility throughput and power 
projection to Forward Operating Locations in the new NATO countries. 
Although these bases are not all main operating bases, they are geo-
strategically located in the European theater.
    U.S. Air Forces in Europe continues to consolidate some of its 
geographically disparate units throughout the region to major operating 
bases that support airlift and power projection capabilities, thus 
increasing efficiencies while reducing footprint. Fiscal year 2004 
military construction is critical for these consolidation efforts, 
focusing on improvements to infrastructure and quality of life. The 
budget contains 21 line-item projects valued at $178.07 million. 
Recently submitted transformational adjustments to the program reduce 
the line-item projects to 18, but add two projects for a combined value 
of $158.71 million. These projects provide improvements to enduring 
installations across the spectrum including a mobility cargo processing 
facility, consolidated communications facilities, aircraft ramps, and 
crash fire stations. Critical quality of life improvements that 
positively impact our mission include an airman's dormitory, Family 
Support and Child Development Centers. One non-line item family housing 
project for $21 million is also being realigned to an enduring 
installation in the theater.

            U.S. Naval Forces Europe (NAVEUR)
    Power and influence projection throughout the area of 
responsibility, strategic agility worldwide, and our ability to swing 
combat and logistics forces around the world--requires assured access 
through Air and Sea Lines of Communication. Line of communication 
control is a fundamental strategy that will be enhanced by our future 
Forward Operating Bases, and Forward Operating Locations, as they 
directly support the force flow and stability operations of the future. 
The Navy's revised fiscal year 2004 military construction submission 
contains four projects, totaling $94.90 million that will continue to 
strengthen U.S. Naval Forces Europe's support to project logistics and 
combat power east and south.
    Recapitalization of Naval Air Station Sigonella's operational base 
improves its ability to support logistics flow. The significant Quality 
of Life and operations support facilities upgrades at NSA La 
Maddalena's waterfront, the homeport of Navy's Mediterranean based 
ship-repair tender, will ensure USEUCOM maintains the capability for 
unimpeded access to repair facilities for nuclear powered warships. 
Construction of a Bachelor Quarters at Joint Maritime Facility St. 
Mawgan will eliminate serious antiterrorism and force protection risks 
and improve single sailor quality of life at this critical joint 
maritime surveillance facility. These projects will ensure that these 
critical bases can support future operations and maintain our 
surveillance coverage of the eastern Atlantic Ocean.
    U.S. Naval Forces Europe is also considering consolidating several 
satellite locations, including those in London, as a means of gaining 
efficiency and reducing the footprint to effectively respond to the 
changing theater mission requirements and transformational initiatives. 
In 1990 there were 14 major naval bases and 17,500 naval personnel 
permanently stationed at shore bases. Today, U.S. Naval Forces Europe's 
footprint has been reduced by five bases and the number of personnel 
in-theater has decreased by one third. Previous closures have 
predominately been in the United Kingdom with follow-on military 
construction focusing on enhancing Navy bases in the Mediterranean.

            U.S. Marine Forces Europe (MARFOREUR)
    U.S. Marine Corps Forces Europe is the smallest Service Component 
Command in USEUCOM. It is, however, well structured to support 
transformational concepts with its pre-positioned equipment set, the 
Norway Air-Land Brigade and Maritime Pre-Positioning Squadron-1 
(MPSRON-1). The force projection capability associated with MPSRON-1 is 
a timely and effective means to place a self-sustaining 15,000 man, 
combat-ready brigade when and where its presence is required. The 
Norway Air-Land Brigade set of equipment and supplies started in the 
mid-1980's as a pre-positioned deterrent located in Norway during the 
Cold War. Over the years, the Norway Air-Land Brigade program has 
evolved into a very cost effective, and timely pre-positioned 
capability for the entire USEUCOM area of responsibility. The equipment 
and supplies have been used numerous times during past years from the 
war in Kosovo, to the current War on Terrorism. The return that USEUCOM 
gains for the extremely small cost and physical footprint associated 
with U.S. Marine Corps Forces Europe is substantial.

            U.S. Special Operations Europe (SOCEUR)
    Special Operations Command Europe (SOCEUR) continues to examine the 
feasibility of relocation from Patch Barracks, Vaihingen, Germany, to 
other installations within the Stuttgart military community. 
Consolidation of headquarters command and staff elements is a key goal. 
HQ SOCEUR currently operates from six facilities on two installations, 
Patch Barracks and Kelly Barracks, within Stuttgart. Two of SOCEUR's 
four subordinate units are based on Panzer Kasern, Stuttgart.
    Effective 1 October 2004, SOCEUR's military personnel authorization 
increases by 79 personnel with the addition of a Standing Joint Special 
Operations Task Force. Also in fiscal year 2004, USSOCOM will fund 
approximately $11.4 million for the construction of hanger and office 
facilities for the fiscal year 2005 basing of F Company, 160th Special 
Operations Aviation Regiment, at the Stuttgart Army Air Field, totaling 
105 personnel. In fiscal year 2005, HQ SOCEUR will receive a Joint 
Special Operations Air Component consisting of an additional 32 
manpower authorizations. Basing options within the USEUCOM Theater are 
being evaluated.

            War Reserve Material
    Multi-service war reserve material in the theater is presently 
stored in several Preposition Sites throughout USEUCOM's area of 
responsibility. There is $22 million in our fiscal year 2004 military 
construction request to establish facilities to store a pre-positioning 
set of equipment that supports our basing strategy. Pre-positioned 
equipment is essential to support our rotational force concept. These 
war reserve material sites are strategic enablers that facilitate rapid 
response to crises, reduce the burden on strategic-lift assets, and 
optimize our ability to project power.

Infrastructure Investment: A Key Enabler
    It cannot be overstated--the quality of our infrastructure has a 
profound impact on our operations, intelligence capabilities, training, 
security cooperation activities, and the quality of life of our service 
members. We recognize the need to eliminate excess infrastructure, and 
the Congressionally mandated and OSD-directed Overseas Basing 
Requirements Study highlights our most recent efforts to do so. 
However, despite our continued efforts and determination, it has not 
been possible to improve existing infrastructure and reduce the 
degradation of mission readiness at existing funding levels. 
Considering the tremendous impact our infrastructure makes on all 
aspects of our mission, and the current state of our facilities, 
infrastructure investment is our most critical funding requirement.
    We have a coherent basing strategy based on current and emerging 
threats; we continue to consolidate our facilities; and, we have 
maximized the use of alternative funding sources. In addition to 
Appropriated and Non-Appropriated Agency Construction and Service 
funding, we pursue several alternative funding programs that have 
contributed to this effort. Such programs include the North Atlantic 
Treaty Organization Security Investment Program, Residual Value, the 
Payment-in-Kind program, and Quid Pro Quo initiatives. Since 1990, 
these programs have generated in excess of $2 billion for construction 
projects throughout U.S. European Command's area of responsibility.
    Significant efforts by the Service Components to consolidate, 
privatize, and outsource have reduced the requirements backlog. Our 
very successful, and still embryonic use of the build-to-lease program 
to recapitalize our family housing throughout the theater has 
substantially decreased our military construction requirements. 
However, we need to do much more in this regard, and the renovation of 
existing housing is an area that still accounts for 20 percent of the 
theater's request for military construction funding.
    USEUCOM has embraced the concept and practice of Public-Private 
Ventures with build-to-lease housing, contracted support services, and 
the privatization of utilities. We are aggressively pursuing utilities 
privatization and the use of private sector financing to improve 
utility system reliability. U.S. Army Europe started these programs in 
the 1980's with the privatization of their heating plants and systems 
and continued in 1996 with other utilities. 85 percent of U.S. Army 
Europe's heating systems have been privatized providing a cost 
avoidance of $2 billion. Since 1996, 39 percent of their utility 
systems have been privatized resulting in a cost avoidance of $27.60 
million. In fiscal year 2003, the Army's cost avoidance was $15.40 
million. U.S. Air Forces in Europe has contracted out base operating 
support functions, using private industry to provide civil engineering, 
services, supply, and other important support. United States military 
personnel and civilian employees normally hold these positions, but at 
certain locations, we have effectively transferred the workload to the 
private sector. The USEUCOM Service Components have all divested their 
family housing and presently have a mix of both Government Family 
Housing and build-to-lease family housing.
    Our fiscal year 2004 military construction request has recently 
been revised and submitted to the Office of the Secretary of Defense 
for consideration. The adjustments submitted reflect recommended 
funding support for our most strategically enduring installations, 
supports our long-term effort to capitalize on new capabilities and 
appropriately arrayed forces to enhance our theater engagement 
strategy. With the funding requested, we can continue to transform and 
align our forces in a manner that is consistent with our expanding 
strategic interests and Alliance responsibilities, while improving the 
quality of life for those who serve.

Summary
    USEUCOM is proceeding with a strategy that matches military 
capabilities with the challenges of the new century. Through the proper 
blend of our Strategic Bases with newer and more agile Forward 
Operating Bases, we will achieve the combined capability, and the right 
balance, necessary in the new millennium. I would like to thank the 
Congress for its continued support, without which our Soldiers, 
Sailors, Airmen, Marines, and Coast Guardsmen would be unable to 
perform the tasks assigned to them by our Nation. With your continued 
assistance, they will remain ready and postured forward to defend 
freedom, foster cooperation and promote stability throughout our 
theater of operations. I appreciate the opportunity to testify, and for 
the committee's consideration to my written and oral remarks.
    I look forward to responding to your questions.

                            LEXICON OF TERMS

    Main Operating Base.--Strategically enduring asset established in 
friendly territory to provide sustained command and control, 
administration, and logistical support in designated areas.
    Forward Operating Base.--Semi-permanent asset used to support 
tactical operations without establishing full support facilities. Can 
be scalable, and may be used for an extended time period. May contain 
prepositioned equipment. Backup support by a MOB may be required to 
support
    Forward Operating Location.--Expeditionary asset similar to a FOB, 
but with limited in-place infrastructure. May contained prepositioned 
equipment.
    Preposition Site.--Sites that contain prepositioned war reserve 
material (Combat, Combat Support, Combat Service Support), usually 
maintained by contractor support.
    Base.--Locality from which operations are projected or supported; 
An area or locality containing installations, which provide logistic or 
other support; and Home airfield or carrier.
    Installations.--A grouping of facilities, located in the same 
vicinity, which support particular functions. Installations may be 
elements of a base.
    Facility.--A Real Property entity consisting of one or more of the 
following: a building, a structure, a utility system, system, pavement, 
and underlying land.
    Site.--A geographic location that has one or more bases or 
facilities associated with it.

    Senator Hutchison. Thank you, General Jones.
    General LaPorte.
    General LaPorte. Madam Chairman, Senator Feinstein, Senator 
Stevens, thank you for your opening comments. I am honored to 
appear before the Committee to update you on the current 
situation in the Republic of Korea.
    First, I want to extend the thanks of all the soldiers, 
sailors, airmen, marines, and Department of Defense civilians 
who serve in Korea. Your unwavering support enables us to 
maintain readiness and accomplish our deterrence mission on the 
Korean Peninsula.
    This past year, we were able to harden theater-level 
command posts, renovate a portion of our existing facilities, 
and begin construction on several new projects, to include new 
barracks, family housing, and multipurpose facilities on our 
enduring bases. These projects continue the work needed to 
provide service members with quality facilities to work and to 
live.
    This year is a unique opportunity to significantly improve 
readiness and overall quality of life in Korea. We are 
committed to consolidating our dispersed and inefficient legacy 
installations into hubs of enduring installations that position 
units where they can best accomplish their assigned missions. 
Consolidation is a critical step toward solving systematic 
issues related to encroachment, decaying support 
infrastructure, overcrowded and inadequate housing, and 
deficient force-protection design.
    Three programs, the Yongsan Relocation, the Land 
Partnership Plan, and the future of the Alliance Policy 
Initiative, are the vehicles to implement this much-needed 
reorganization.
    Yongsan Relocation has received renewed attention this 
year. Under the original 1990 Yongsan Relocation Agreement, the 
Republic of Korea committed to fund the movement of the United 
States Forces Korea units out of Central Seoul. Due to 
President Roh's current administration's support and emphasis, 
we now have agreed, in principle, to accelerate the Yongsan 
Relocation.
    The Land Partnership Plan. The principal instrument for 
consolidating our 41 major installations and 90-plus camps and 
stations is on track. The Land Partnership Plan, signed by the 
Minister of National Defense and ratified by the Korean 
National Assembly, will ensure stable stationing of the United 
States Korea forces. It returns half of the land, 32,000 acres, 
granted to the United States forces under the Status of Forces 
Agreement. In exchange, the Republic of Korea Government will 
procure the land needed for new construction on our enduring 
installations' hubs. Moreover, the Land Partnership Plan has 
the flexibility needed to accommodate refinements in force 
structure and stationing. The Land Partnership Plan requires no 
new military construction funding; however, it depends on 
stable funding to existing military construction projects 
throughout the future years defense plan.
    To strengthen the Republic of Korea-United States Alliance 
and to ensure continued regional and peninsula security, we are 
in the midst of a Future of the Alliance Policy Initiative 
Study, a series of high-level consultations directed by the 
Secretary of Defense and the Republic of Korea Minister of 
Defense. The Future of the Alliance Policy Initiative is 
designed to strengthen the alliance, enhance deterrence, shape 
future roles, missions, and functions for the combined military 
forces, and establish a stable stationing plan. The Future of 
the Alliance Policy Initiative brings 21st century warfighting 
capability to Korea and improves combined deterrence. It 
synchronizes our efforts to consolidate United States Forces 
Korea into hubs of enduring installations through the Land 
Partnership Plan and Yongsan Relocation. We also achieve 
significant economies of scale that reduce the overall cost of 
operating our bases.
    Because of the Republic of Korea's commitments provided in 
these three innovative programs, I am confident that we can 
implement our Military Construction Plan to achieve 
efficiencies and improve readiness and overall quality of life. 
U.S. support to stable military construction budgets for 
projects in future years is essential to bringing this plan to 
fruition.
    Our strategy uses a balance of sustainment, renovation, 
build-to-lease, and military construction to address our core 
deficiencies. We prioritize military construction projects 
based on their impact on readiness, infrastructure, mission 
accomplishment, and quality of life. This approach ensures that 
we use resources to address the most pressing needs on our 
enduring installations.

                           PREPARED STATEMENT

    To implement this strategy, we need your help in two areas, 
continued stable military construction budgets and, secondly, a 
change in the rules governing build-to-lease programs in the 
Republic of Korea.
    I am confident that our strategy will prudently use 
military construction projects to improve the overall readiness 
and quality of life for the service members who serve in Korea.
    I thank you for the opportunity to appear today before this 
Committee, and I look forward to your questions.
    [The statement follows:]

             Prepared Statement of General Leon J. LaPorte

                              INTRODUCTION

    Senator Hutchison, Senator Feinstein, and distinguished committee 
members, I am honored to appear before you as Commander United Nations 
Command, Combined Forces Command, and United States Forces Korea. I 
want to express our deep gratitude to Congress for your support to our 
forces serving in Korea. Our ability to accomplish the mission in Korea 
has been possible because of the help you provided. Over the last year, 
we have had many legislators and their staffs visit Korea. They spent 
time with our service members hearing about their concerns, and seeing 
the living and working conditions firsthand. With your support we have 
made significant quality of life improvements such as workplace 
renovation, housing upgrades, and providing internet access in our 
libraries, day rooms and community centers. However, there is much more 
to be done. Your efforts and personal involvement made a tremendous 
impact on our people. On behalf of all the Soldiers, Sailors, Airmen, 
Marines, and Department of Defense civilians serving in Korea, I thank 
you for your continued support.
    This has been an extraordinary year in Korea. 2002 marked the 
fourth democratic transfer of power in the Republic of Korea, renewed 
South Korean efforts toward inter-Korean reconciliation, and the first 
World Cup hosted in Asia. In contrast, there were some discouraging 
incidents such as North Korea's calculated armistice violation in the 
West Sea, exposure of the North Korean nuclear weapons programs, a 
tragic training accident in June, and cyclic rise of anti-United States 
Forces Korea sentiment. North Korea attempted to split the Republic of 
Korea-United States Alliance by exploiting these events. Our Alliance 
weathered these challenges and continues to serve as the foundation for 
peace and security throughout Northeast Asia. These incidents have 
firmly reinforced three points: the consequences of events in Korea 
affect the entire world, continued United States presence in Northeast 
Asia is critical to regional stability, and the Republic of Korea-
United States Alliance is essential to regional security.

                CONSOLIDATING TO ENDURING INSTALLATIONS

    This year is a unique opportunity to significantly improve 
readiness and overall quality of life in Korea. We are committed to 
consolidating our dispersed and inefficient legacy installations into 
hubs of enduring installations that position units where they can best 
accomplish their assigned missions (Figure 1). Moreover, this effort is 
a crucial step toward solving systemic issues related to encroachment; 
decaying infrastructure; overcrowded and inadequate housing; and 
deficient force protection design. Momentum in three major programs 
facilitate this consolidation effort: Yongsan relocation; Land 
Partnership Plan; and the Future of the Republic of Korea-United States 
Alliance Policy Initiative.
    Yongsan relocation has received renewed attention this year. Under 
the original 1990 Yongsan relocation agreement, the Republic of Korea 
committed to fully fund the movement of United States Forces Korea 
units out of central Seoul. For a variety of reasons, relocation of 
Yongsan languished until the current Korean government placed heavy 
emphasis on moving national government functions out of Seoul. Party as 
a result of the Roh administration's emphasis, we now have agreement-
in-principle to accelerate Yongsan relocation. Next month we expect to 
complete the Yongsan relocation facilities master plan. The Republic of 
Korea will pay all costs associated with Yongsan relocation. We are 
aggressively working with the Republic of Korea government to decide 
the details of timing and final facilities for Yongsan relocation under 
the terms of the original agreements.\1\
---------------------------------------------------------------------------
    \1\ The Yongsan relocation agreement provides for residual U.S. 
presence in Seoul to man headquarters billets for Combined Forces 
Command and United Nations Command. United States Forces Korea 
headquarters and operational units will move out of Seoul.
---------------------------------------------------------------------------
    Land Partnership Plan, in its first year of execution, is the 
principle instrument for consolidating our 41 major installations.\2\ 
Approved by the Ministry of National Defense in March 2002 and ratified 
by the National Assembly in November 2002, Land Partnership Plan has 
the full support of the Korean government and will ensure stable 
stationing for United States Forces Korea. Land Partnership Plan 
depends heavily on predictable military construction funding because 
the needed facilities are funded by a combination of United States 
military construction and host nation funded construction.\3\
---------------------------------------------------------------------------
    \2\ As ratified in November 2002, the Land Partnership Plan 
identifies 23 enduring United States Forces Korea installations on the 
Korean peninsula. As part of the Future of the ROK-U.S. Alliance Policy 
Initiative, USFK proposed LPP refinements to further reduce the number 
of enduring installations and accelerate consolidation into enduring 
hubs.
    \3\ The Land Partnership Plan agreement provides the Status of 
Forces Joint Committee the authority to negotiate modifications to the 
basic plan.
---------------------------------------------------------------------------
    Land Partnership Plan is a comprehensive, durable framework for 
United States Forces Korea stationing. It returns half of the land 
(32,000 acres) granted to United States Forces Korea under the Status 
of Forces agreement. In exchange, the Republic of Korea government must 
procure the land needed to expand our enduring installations. These 
land parcels accommodate new facilities construction and provide 
easements that reduce encroachment and improve force protection. 
Moreover, Land Partnership Plan has the flexibility needed to 
accommodate refinements in force structure or stationing to achieve 
efficiencies identified through the Future of the Republic of Korea--
United States Alliance Policy Initiative.
    The Future of the Alliance Policy Initiative is a series of high-
level consultations designed to strengthen the Alliance, enhance 
deterrence, shape future roles, missions, and functions for the 
combined military forces, and establish a stable stationing plan for 
United States Forces Korea. During these talks, the Republic of Korea 
confirmed the agreement to consolidate United States Forces Korea into 
hubs of enduring installations and to refine the Land Partnership Plan 
to implement a stable stationing plan.\4\ The details of the 
consolidation will be developed in subsequent meetings between the 
Republic of Korea Ministry of National Defense and Ministry of Foreign 
Affairs and Trade in conjunction with the United States Office of the 
Secretary of Defense and State Department.
---------------------------------------------------------------------------
    \4\ The joint press statement from the first Future of the Alliance 
Policy Initiative meeting confirms ROK commitment to USFK consolidation 
and acceleration of Yongsan relocation: ``The two sides agreed to 
consolidate the USFK base structure in order to preserve an enduring 
stationing environment for USFK, to achieve higher efficiency in 
managing USFK bases, and to foster a balanced development of ROK 
national lands. Both sides agreed to continue discussion on the timing 
of the overall realignment process . . . to provide a stable stationing 
environment for USFK, the two sides agree to relocate Yongsan Garrison 
as soon as possible.''
---------------------------------------------------------------------------
    With these three innovative programs, I am confident that we can 
implement our military construction plan to enhance readiness; achieve 
efficiencies; guarantee force protection; and improve overall quality 
of life. Your support to stable military construction budgets for 
projects in the Future Year's Defense Plan is essential to bringing 
this plan to fruition.
    Today I will address current and future requirements in the context 
of: the Northeast Asia security environment; the Republic of Korea 
today; the North Korean challenge to regional and global security; the 
Republic of Korea-United States Alliance; and the Fix Korea Strategy.

                THE NORTHEAST ASIA SECURITY ENVIRONMENT

    Northeast Asia is a nexus of economic might, competing interests, 
converging threats, cultures, and historical animosities. Over 17 
percent of the world's trade value is with countries in Northeast Asia, 
and United States trade with the region (over $414 Billion) is second 
only to our trade with the North American Free Trade Association.\5\ 
Many of the nations in the region--China, Japan, Russia, and the 
Republic of Korea--are contending for economic and political influence. 
Enduring cultural and historical animosities remain a dynamic political 
force. This region marks the convergence of five of the world's six 
largest militaries, and three of the five declared nuclear powers. 
Today, the current military demarcation line between North and South 
Korea is the most heavily armed in the world and remains an arena for 
confrontation. North Korea's pursuit of nuclear weapons and 
proliferation of missile technology threatens global and regional 
stability. United States presence in Korea demonstrates our firm 
commitment to defend democratic values and prevent our enemies from 
threatening us--and our partners--with weapons of mass destruction. Our 
forces in Korea send the clear message that we will stand with our 
allies and friends to provide the stability that promotes prosperity 
and democratic values.
---------------------------------------------------------------------------
    \5\ Derived from U.S. Census data. For 2002, total trade with 
Northeast Asia ($U.S. billion) are: Japan $172.93, China $147.22, 
Republic of Korea $58.17, Taiwan $50.59. Trade with NAFTA during the 
same period was $557.39 (Canada $371.39 and Mexico $232.26), (http://
www.census.gov/foreign-trade/top/dst/2002/11/balance.html, accessed 14 
APR 2003.
---------------------------------------------------------------------------
The Republic of Korea Today
    The Republic of Korea today is fast becoming a global economic 
competitor. In 2002 the Republic of Korea's economy grew six percent 
while boasting the world's 11th largest Gross Domestic Product and 
third largest cash reserves.\6\ The Republic of Korea's vision of the 
future is to diversify its economy by becoming the ``transportation, 
financial, and information technology hub of Northeast Asia''.\7\ This 
vision seeks to route Northeast Asia, Europe, and the Americas trade 
through South Korea using an inter-Korean transportation system. Inter-
Korean initiatives begun by former President Kim, Dae Jung and 
continued by President Roh, Moo Hyun pursue reconciliation for 
cultural, economic, and humanitarian reasons. The Republic of Korea's 
engagement policies toward North Korea profoundly affect how South 
Koreans view their relations with the United States and North Korea.
---------------------------------------------------------------------------
    \6\ United States Department of State, Country Commercial Guide 
Korea, fiscal year 2003.
    \7\ President Roh, Moo-hyun announced his intent to position the 
Republic of Korea as the ``economic powerhouse of Northeast Asia''. In 
public appearances, he amplified this vision stating that he sought to 
make South Korea the transportation, financial, and information 
technology hub of Northeast Asia. For President Roh's national 
priorities, see Korea Herald articles at http://kn.koreaherald.co.kr/
SITE/data/htmlXdir/2003/01/11/200301110003.asp, http://
kn.koreaherald.co.kr/SITE/data/htmlXdir/2002/12/28/200212280010.asp.
---------------------------------------------------------------------------
    Many South Koreans under age 45, a generation that has lived in an 
era of peace, prosperity, and democratic freedoms, have a diminished 
perception of the North Korean threat. These South Koreans see North 
Korea not as a threat but rather as a Korean neighbor, potential 
trading partner and a country that provides access to expanded Eurasian 
markets. This view of North Korea contrasts with America's view that 
North Korea is a threat to regional and global stability. This 
divergent perception of North Korea, coupled with strong national 
pride, has been a cause of periodic tension in the Republic of Korea-
United States Alliance.
    There have always been groups in the Republic of Korea that are 
critical of United States policy and claim that the United States 
hinders inter-Korean reconciliation. Demonstrations against American 
policy and military presence increased sharply during this year's 
Republic of Korea presidential election. Political interest groups made 
claims of inequity in the Republic of Korea-United States alliance a 
central issue during the presidential campaign. Opposition groups 
exploited a United States military court's acquittal of two American 
soldiers charged with negligent homicide in the tragic training 
accident that claimed the lives of two South Korean schoolgirls last 
June. Non-governmental organizations asserted that the Status of Forces 
Agreement (SOFA) was unjust and that the acquitted soldiers should have 
been tried in a Republic of Korea court rather than by a United States 
military court. During the presidential election campaign, these groups 
used biased and inaccurate media reporting to inflame anti-United 
States Forces Korea sentiments and mobilize demonstrations, a 
traditional tool of political protest in the Republic of Korea. 
Regrettably, several of these protests turned violent.
    Since the December 2002 Republic of Korea presidential election, 
anti-United States Forces Korea demonstrations have virtually 
disappeared, due in large part to positive steps taken by United States 
Forces-Korea, the United States Embassy, and the Republic of Korea 
government. Shortly after his election, President Roh, Moo Hyun voiced 
support for a strong Republic of Korea-United States alliance and 
continued United States military presence in Korea even after 
reconciliation. Since the presidential election, pro-American groups in 
the Republic of Korea have conducted demonstrations, some as large as 
100,000 people, supporting the continued stationing of United States 
forces in the Republic of Korea. The future of the Alliance involves 
the Republic of Korea assuming the predominant role in its defense and 
increasing both Republic of Korea and United States involvement in 
regional security cooperation. I firmly believe that we have an 
opportunity to revitalize the Alliance, by closely examining the roles, 
missions, capabilities, force structure, and stationing of our 
respective forces.

     THE REPUBLIC OF KOREA'S SUPPORT TO GLOBAL MILITARY OPERATIONS

    The Republic of Korea has continued their support for U.S.-led 
operations in Iraq and Afghanistan. The Republic of Korea's National 
Assembly has extended its mandate and increased its commitment of 
support forces to Operation ENDURING FREEDOM through December 2003. 
Today Republic of Korea liaison officers are planning and coordinating 
with their United States counterparts at both Central Command and 
Pacific Command headquarters. The Republic of Korea has provided 
several contingents of support troops to Operation ENDURING FREEDOM, 
including a navy transport ship moving essential airfield material to 
Diego Garcia, four C-130 cargo aircraft to support the United States 
Pacific Command's operations, a hospital unit in Afghanistan, and an 
engineering unit at Bagram Air Base, Afghanistan. In addition, the 
government of the Republic of Korea has provided $12 million of their 
$45 million pledge to fund humanitarian and rebuilding efforts in 
Afghanistan.
    In April, with President Roh's strong endorsement, the Republic of 
Korea National Assembly approved deployment of troops to the Iraqi 
theater of operations. The contribution of a 600-man engineering 
battalion, a 75-man security unit, and a 100-man medical unit to the 
Iraqi theater of operations bring needed stability operations 
capabilities to Iraq. Participation in Operations ENDURING FREEDOM and 
IRAQI FREEDOM represent another in a long series of Republic of Korea 
deployments along side United States troops during the past 50 years of 
our Alliance.

        NORTH KOREAN CHALLENGES TO REGIONAL AND GLOBAL SECURITY

    North Korea is a dangerous dictatorship that continues to pose a 
direct threat to peace, security, and stability in NEA Northeast Asia. 
The Kim Regime uses illicit activities to fund the extravagant 
lifestyles of the inner circle and is using its military capabilities 
to extort resources from the international community. North Korea poses 
several threats to global stability: an economy on the brink of 
failure; an active nuclear weapons program; withdrawal from the Nuclear 
Non-proliferation Treaty; growing threat to the world through 
proliferation of missiles, chemical, and biological weapons 
technologies and possibly nuclear materials and technology; and large 
conventional force and special operations force that directly threaten 
our Allies. North Korean brinksmanship ensures that the Korean 
Peninsula remains a place of palpable danger, illustrated by the North 
Korea's unprovoked attack in the West Sea on June 29, 2002, the restart 
of the Yongbyon nuclear reactor, and their efforts to develop highly 
enriched uranium nuclear weapons. North Korea continues to flagrantly 
violate their international agreements resulting in increased regional 
tensions. The Republic of Korea and United States forces continue to 
face the possibility of a high intensity war involving large 
conventional forces and significant weapons of mass destruction 
delivered by long-range missiles.
    North Korea poses a dangerous and complex threat to peace and 
security on the peninsula and throughout the region. Their growing 
weapons of mass destruction, missile, and re-vitalized nuclear weapons 
programs constitute a substantial threat to the world. What's most 
dangerous is that they have shown willingness to sell anything to 
anybody for hard currency. They will continue to support the military 
at the expense of the general population and extort aid to prop up 
their failing economy. We see no indications that the Kim Regime will 
change the policies of brinkmanship and proliferation of missiles and 
weapons of mass destruction technologies throughout the world.

 THE REPUBLIC OF KOREA-UNITED STATES ALLIANCE: UNITED NATIONS COMMAND, 
        COMBINED FORCES COMMAND, AND UNITED STATES FORCES KOREA

    Since I took command in May 2002, I have had several opportunities 
to assess the readiness and training of United Nations Command, 
Combined Forces Command, and United States Forces Korea. Key events 
included response to the West Sea Armistice Violation by North Korea, 
security for development of the inter-Korean transportation corridors 
through the Demilitarized Zone, and security support for the 2002 World 
Cup and Asian Games.

United Nations Command
    Under the mandate of United Nations Security Council Resolutions 
82, 83, and 84, the United Nations Command in Seoul provides a standing 
coalition with 15 member nations to address trans-national interests in 
regional stability. United Nations Command led the international 
response to the June 29, 2002 West Sea Armistice violation by the North 
Koreans. This egregious, unprovoked North Korean attack in the West Sea 
that sank a Republic of Korea patrol boat, killed 6 and wounded 19 
Republic of Korea sailors. The member nations of the United Nations 
Command promptly issued strong statements denouncing the North Korean 
aggression. Facing this international censure, North Korea reluctantly 
expressed regret over the incident and agreed to the first United 
Nations Command-Korean Peoples Army General Officer talks in almost 2 
years. At the General Officer talks, North Korea guaranteed not to 
interfere with a United Nations Command-led salvage operation. Under 
the United Nations flag, the Republic of Korea's navy successfully 
salvaged the sunken boat. United Nations Command observers ensured 
neutrality and transparency of the salvage operation. The strength of 
the Republic of Korea-United States Alliance, backed by the United 
Nations Command member nations led to a successful West Sea recovery 
operation and reinforced the legitimate authority of United Nations 
Command to enforce the Armistice. United Nations Command again provided 
a stabilizing force and prevented a dangerous situation from escalating 
into open hostilities.
    Following the West Sea salvage operation, the Republic of Korea and 
North Korea held the Seventh Inter-Korean Ministerial talks, during 
which they re-invigorated efforts to establish inter-Korean 
transportation corridors. These corridors allow reconnection of rail 
lines and roadways through two designated points in the Demilitarized 
Zone to facilitate inter-Korean humanitarian visits and commerce. To 
support this Republic of Korean reconciliation initiative, United 
Nations Command worked closely with the Republic of Korea's Ministry of 
National Defense to establish special coordination measures between the 
Republic of Korea's Ministry of National Defense and the North Korean 
People's Army to speed construction and operation of the transportation 
corridors while ensuring compliance with the Armistice Agreement and 
security of the Demilitarized Zone. The first group of passengers 
crossed the Military Demarcation Line through the eastern corridor on 
14 February 2003. This was the first time in 50 years that citizens of 
the Republic of Korea crossed directly into North Korea and is a clear 
demonstration of successful cooperation between the Republic of Korea 
and United Nations Command. Figure 2 illustrates the location of the 
east and west inter-Korean transportation corridors through the 
Demilitarized Zone.

Combined Forces Command
    Combined Forces Command ensures the security of the people of the 
Republic of Korea. Combined Forces Command provides the military force 
that deters external aggression and stands ready to defeat any external 
provocation against the Republic of Korea. Combined Forces Command, 
composed of air, ground, naval, marine, and special operations 
component, conducts combined training exercises and readiness 
inspections to maintain the warfighting readiness that is essential to 
deterrence. The Combined Forces Command headquarters is a fully 
integrated staff, manned by Republic of Korea and United States 
military officers. This thoroughly integrated headquarters coordinates 
the operations that deter external aggression. In 2002, Combined Forces 
Command assisted with the successful United Nations Command salvage 
operation in the West Sea and military security support to the World 
Cup and Asian Games.
    Leveraging Combined Forces Command wartime operational procedures, 
United States Forces-Korea and Republic of Korea forces shared 
information and conducted combined exercises to deter terrorist 
infiltrators seeking to disrupt the World Cup and Asian Games. Combined 
Forces Command operated a Crisis Action Response Team to quickly 
respond to any type of incident. United States Forces-Korea provided 
unique biological defense assets to augment the Republic of Korea's 
military capabilities. Our close cooperation demonstrated the agility 
of Combined Forces Command to conduct a wide range of operations and 
ensured a secure 2002 World Cup and Asian Games.

United States Forces Korea
    United States forces in Korea are the tangible demonstration of 
United States commitment to peace and stability in Korea and throughout 
Northeast Asia. United States Forces-Korea brings the robust 
technological superiority, information dominance, and warfighting 
prowess that buttress the Republic of Korea's military capabilities. 
Our forward presence deters North Korean aggression and prevents a 
devastating war that can only have tragic consequences throughout the 
region. My command priorities--Ensure peace and stability on the Korean 
peninsula, Readiness and Training, Strengthen the Republic of Korea-
United States Alliance, Transform the Command, and Make Korea an 
Assignment of Choice--focus our resources to maintain the military 
dominance that ensures deterrence. I want to present my vision of 
improved readiness and quality of life and the key military 
construction projects that will need your support. Your continued 
support is essential to maintaining the balanced readiness that 
sustains our state-of-the-art warfighting capabilities.

Enduring Installations--the Cornerstone of Balanced Readiness
    Balanced readiness requires functional installations that meet both 
warfighting requirements and quality of life needs. Our current 
installations, a legacy of the Cold War, meet neither of these 
criteria. The existing 41 major bases are dispersed throughout Korea, 
causing substantial inefficiency in operations, logistics, and life 
support. For example, our logistics facilities are significantly 
separated from their operational unit customers, lengthening supply 
channels and delaying replenishment. Dispersion also impacts quality of 
life, requiring service members at remote installations to travel 
between 1 and 4 hours to a medical or dental appointment or use a 
commissary.
    Our facilities and infrastructure are old--one third of all 
buildings in the command are between 25 and 50 years old and another 
one third are classified as temporary buildings. They have deteriorated 
because of high operational tempo, deferred maintenance, and the 1990-
1994 military construction freeze. These deficits underscore the need 
for stable military construction to achieve consolidation and rectify 
our facilities shortfalls. Figure 3 illustrates the historical military 
construction spending in Korea.

Fix Korea Strategy
    Consolidating into enduring installations is the key to improving 
readiness and improved quality of life for United States Forces Korea. 
Our service members in Korea face challenges from decaying support 
infrastructure, inadequate force protection facilities, overcrowded and 
inadequate housing, family separation, and financial hardship. Our 
strategy to maintain readiness and improve the working and living 
conditions in Korea has six pillars: Sustain and Improve Our Aging 
Infrastructure, Renovate Where We can, Maximize Build-to-Lease, 
Minimize Build-to-Own, Achieve Environmental Standards, and Address 
Inadequate Pay. With your help, we've made significant progress 
implementing this strategy. We have upgraded much of our existing 
housing and begun construction on several of the needed additional 
facilities. Stable funding contributes to the strength of each of the 
strategy pillars.

Sustain and Improve our Aging Facilities and Infrastructure
    The first priority of our strategy is sustaining our existing 
infrastructure. Providing quality facilities allows our skilled 
uniformed and civilian personnel to work safely and efficiently. We 
prioritize Sustainment, Restoration, and Modernization funding based on 
safety of use, mission impact, efficiency, and quality of life to 
ensure that best return on investment. However, Sustainment, 
Restoration, and Modernization funding levels have resulted in a 
growing backlog of restoration requirements.\8\ Over time, lack of 
maintenance leads to failure of life support systems and degraded 
readiness and increases the frequency of emergency repairs. It also 
leads to increased costs associated with substantial restoration 
projects. Figure 4 illustrates how lack of proper maintenance required 
significant repair to one of our many sewer systems. Similar projects 
have been required to maintain our electrical power distribution, 
roads, and buildings.
---------------------------------------------------------------------------
    \8\ Current Sustainment, Restoration, and Modernization backlog in 
Korea is approximately $1.1 billion: $774 million Army, $327 million 
Air Force, $1.8 million Navy. 2003 Sustainment, Restoration, and 
modernization funding is $171 million.
---------------------------------------------------------------------------
Renovate Where We can
    In addition to sustaining our infrastructure, we are renovating 
existing structures to provide the capabilities we need. The fiscal 
year 2004 renovation of hardened aircraft shelters at Kunsan air base 
illustrates this process. This $7 million force protection project is 
part of a phased plan that repairs the concrete protective structures 
and utility systems that support our mission critical aircraft.
    Force protection is a key part of our renovation program. 
Protecting the force remains essential to operational readiness--I will 
not compromise the safety of our service members and their families. 
Although we continue to assess the terrorist threat as low, we remain 
vigilant and have taken critical steps to improve our security posture. 
Notable improvements this year have been increasing perimeter security 
forces, installation of closed circuit television monitors at key 
access points, fielding Portal Shield chemical and biological detection 
systems, and conducting intensive anti-terrorism and force protection 
training exercises.
    Over the past year we completed a detailed vulnerability assessment 
of our installations. This assessment identified over 130 major tasks 
required to comply with anti-terrorism and force protection 
requirements. Key requirements to improve force protection focus on 
establishing adequate standoff protection around our key facilities and 
installations and upgrading structural integrity on mission essential 
and vulnerable buildings. The total value of these force protection 
projects is $15 million. We appreciate your support to these programs 
that protect our service members and improve our warfighting 
facilities.
    In addition to workspace improvements, we are also upgrading our 
family housing, dormitories and barracks. I firmly believe that safe, 
quality accommodations improves our members' quality of life, increases 
their satisfaction with military service, and ultimately leads to 
increased readiness and retention. With your support, we have continued 
our housing renovation program and service members across the peninsula 
are enthusiastic about the results. To continue this initiative in 
2004, we will invest another $8 million in family housing.
    Korea currently has the worst unaccompanied housing in the 
Department of Defense. Overcrowding and inadequate facilities requires 
us to house 40 percent of our unaccompanied personnel outside of 
installations, causing significant force protection concerns. The Air 
Force Dormitory Master Plan and Army Barracks Upgrade and Buyout Plan 
allow us to use funds where they are most needed for renovation and 
construction. Last year we invested $130 million to renovate fourteen 
barracks buildings across the peninsula. Our plan calls for us to 
replace the last Quonset hut with permanent facilities by the 
Department of Defense target of 2008. We need your continued commitment 
to a stable Military Construction budget to continue our renovation and 
force protection improvement programs.

Use Build-to-Lease
    As we close facilities during consolidation under Land Partnership 
Plan, we will need additional facilities on our enduring installations. 
Build-to-lease is the most cost effective way to improve housing and 
facilities in Korea. We believe this program, modeled on successful 
Department of Defense programs in the United States and Europe, 
provides the answer to many of our quality of life concerns and reduces 
costs associated with new military construction. We are now exploring 
build-to-lease units at Camp Humphreys (1,500 families) and Camp Walker 
(500 families) to provide adequate housing for our military and certain 
key and essential civilian sponsored families. Build-to-Lease uses 
Korean private sector and Host Nation Funded construction where 
appropriate. These programs reduce both initial start-up costs and 
total cost of ownership. Build-to-Lease will enable use to rapidly 
replace our aging housing infrastructure and to increase our available 
family housing units.
    To fully implement the Build-to-Lease plan, I need your help to 
change the legislative rules on Build-to-Lease. First, we need to 
increase the maximum family housing lease period from 10 to 15 years 
and extend the maximum lease duration for support facilities from 5 to 
15 years. Build-to-Lease is a ``win'' for the American service members 
stationed in Korea because it will significantly raise their quality of 
life and it is a ``win'' for the American taxpayer because it reduces 
the cost of housing improvement for our service members with families.
    With increasing numbers of married service members, we recognize 
that high operational tempo and unaccompanied tours are detrimental to 
overall readiness. We must act now to reduce the perennial problems of 
family separation and poor quality of life in Korea. We currently 
provide government owned and leased housing for less than 10 percent of 
our married service members (1,862 families) compared to more than 70 
percent in Europe and Japan. Our goal is to provide quality command-
sponsored housing for at least 25 percent of our accompanied service 
members and their families by 2010. If traditional military 
construction alone were used to meet this increased demand for housing, 
it would cost $900 million.
    Increasing our rate of command sponsorship is an important step to 
enhance readiness and improve quality of life. Replacing a portion of 
the current 12-month unaccompanied tours with longer accompanied tours 
reduces turbulence that affects readiness on and beyond the Korean 
peninsula. For example, a 24 to 36 month accompanied tour enhances 
readiness by allowing leaders to develop more enduring and stable 
working relationships with our Republic of Korea partners. Longer tours 
in Korea also reduce the turbulence throughout the Services, enhancing 
readiness in units beyond the peninsula. Accompanied tours, coupled 
with adequate housing, improve the service member's quality of life by 
reducing family separation. I urge you to support all efforts to 
increase and improve the family housing in Korea.

Build-to-Own
    While ``Build-to-Lease'' is a promising option, there are some 
facilities that must be government owned. For example, Build-to-Own 
provides unaccompanied housing, administrative, operations, logistics, 
maintenance, and medical facilities that support our core operations 
requirements. These improvements are sorely needed to improve the 
efficiency of our enduring installations and the quality of life in 
Korea. As a key steward of Military Construction in Korea, I assure you 
that your appropriations will be prudently invested in the enduring 
installations that will support our service members long into the 
future.
    We deeply appreciate your support to 2003 Military Construction 
($237 million), which has vastly improved readiness and quality of 
life. We were able to harden the theater Command Post Tango and to 
begin construction on 1,792 unaccompanied housing units, a new family 
housing development at Osan air base, and a multi-purpose center at 
Camp Castle. Even with the great assistance we received in fiscal year 
2003 we continue to have substandard facilities throughout this 
command. Our fiscal year 2004 military construction projects are 
prioritized based on their impact on readiness, infrastructure, and 
quality of life. Table 1 summarizes the major military construction 
projects for the coming fiscal year. These projects have been re-
validated in the Secretary of Defense fiscal year 2003-2004 Military 
Construction budget review as essential facilities.

                      TABLE 1.--SUMMARY OF FISCAL YEAR 2004 MILITARY CONSTRUCTION PROJECTS
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
              Service                       Category                          Project                     Cost
----------------------------------------------------------------------------------------------------------------
Air Force.........................  Readiness..............  Upgrade Hardened Aircraft Shelters.......       7.0
Air Force.........................  Housing................  Dormitory (156 Room).....................      16.5
Air Force.........................  Housing................  Construct Family Housing Phase II........      45.0
Army..............................  Housing................  Barracks Complex.........................      40.0
Army..............................  Housing................  Barracks Complex.........................      35.0
Army..............................  Housing................  Barracks Complex.........................      30.0
----------------------------------------------------------------------------------------------------------------

    In addition to the previously discussed projects to upgrade 
aircraft shelters at Kunsan, we have also asked for fiscal year 2004 
Military Construction appropriations that include 111 new family 
housing units at Osan air base ($45 million) and four new Unaccompanied 
Enlisted Housing projects ($131.5 million), providing new housing for 
888 service members. These projects will reduce the number of service 
members living in dense urban areas outside our installations, improve 
force protection and reduce the high out-of-pocket living expenses 
incurred by service members and their families. They will also allow us 
to move toward our goal of increasing the command sponsored housing for 
our accompanied service members and their families. Your continued 
support to Military Construction in the Future Years Defense Plan 
enables us to implement our comprehensive construction program that 
prudently uses resources to correct the significant infrastructure 
shortfalls on our enduring installations.

Achieve Environmental Standards
    We have made significant strides in environmental custodianship. 
Caring for our environment is important to me personally and to the 
command. Our wastewater management has been a great success. Over the 
last 6 years, we invested approximately $30 million in ten wastewater 
systems and we have programmed an additional $12 million for three more 
systems. Your support to these improvements ensures safe water and a 
clean environment for all who serve in Korea. We have worked hard with 
the Republic of Korea-United States team to improve coordination on 
environmental protection measures and to share lessons learned to 
protect the environment.
    In addition, we have implemented innovative procedures that have 
decreased the operational use of hazardous materials, reducing our 
storage and disposal requirements. Computer-assisted material 
management programs allow us to better manage inventory, shift to more 
environmentally friendly alternative products, and reduce disposal 
requirements. Other initiatives include recycling used oil and anti-
freeze, and an effective battery recovery program that reconditions and 
returns batteries for use with minimum environmental impact.
    The most immediate environmental concern is with aging and 
frequently leaking fuel storage tanks, a legacy of our obsolete 
infrastructure. We are committed to resolve this problem throughout 
United States Forces Korea. We have a $100 million program through 
Defense Energy Support Center to upgrade fuel storage facilities 
throughout Korea to ensure that we meet environmental standards. To 
sustain our environmental improvements we need your continued support 
for environmental projects in 2004. These resources will be wisely 
invested in our enduring installations under the Land Partnership Plan, 
resulting in improved stewardship of the environment.
    In conclusion, I'd like to leave you with these thoughts:
    Northeast Asia is a critical region for the United States and our 
partners. The Republic of Korea-United States Alliance and our 
continued presence in the region demonstrate our commitment to ensure 
peace and security in the region. Congressional support is vital to our 
future in Korea and Northeast Asia. We thank you for all that you've 
done.
    Korea is a better place because of your efforts, and we thank you 
for all that you've done. We have made some significant improvements in 
quality of life and readiness--investments that increase our efficiency 
and will support our service members far into the future. However, 
substantial work remains to be done. To improve family housing and 
service member quality of life that is essential to morale and 
readiness, we need to increase Build-to Lease authorities in Korea. We 
also need stable military construction budgets that support to our 
critical projects. With your continued support we can implement our 
plan to make Korea an assignment of choice for all the Services.
    Land Partnership Plan is an enduring commitment to achieve stable 
stationing for United States Forces Korea. The momentum provided by the 
Future of the Republic of Korea-United States Alliance Policy 
Initiative, ensures that we can establish a stable, enduring stationing 
plan that improves readiness and overall quality of life. Because the 
success of Land Partnership Plan depends on stable military 
construction projects, I assure you that your appropriations will be 
prudently invested in enduring installations.
    You can be justifiably proud of all the Soldiers, Sailors, Airmen, 
Marines, and civilians that serve and sacrifice in Korea. Their daily 
dedication and performance reflect the trust and support that you've 
placed in them. They appreciate your efforts and continued support.

    Senator Hutchison. Yes, Senator Stevens.

                LEGAL CHANGES RELATED TO TRANSFORMATION

    Senator Stevens. Thank you very much, Madam Chairman.
    Let me ask you just one general question for each one of 
you. Do you require any changes in basic law that govern your 
military forces in order to bring about these changes you have 
just described?
    General Jones. Senator, I do not think, in terms of our 
national law, I am not aware of any changes in basic law that 
we might require.
    Senator Stevens. No treaty changes, no basic laws?
    General Jones. We may need to re-look at some of the 
understandings with which we have entered into some of our 
agreements--for instance, notably with--if we should decide to 
put some bases in the eastern part of our EUCOM AOR, we may 
have to re-look at some of the understandings with Russia, for 
example. The agreement that allowed NATO expansion was that 
there would be no major military bases. That was not defined. 
The model that we are presenting, or that we will present, has 
smaller units more oriented on engagement as opposed to 
strategically in place warfighting capability.
    So I think that as we look through all of these documents, 
we are looking at that as we go along to make sure we, number 
one, understand them all, find the ones that are still in 
existence. It is a work in progress. But, right now, I have not 
seen anything that is a show-stopper.
    Senator Stevens. General LaPorte.
    General LaPorte. Senator Stevens, the six tenets of the 
United States Republic of Korea Mutual Defense Treaty that was 
signed in 1953 are still valid today and will apply in the 
future. So I see no requirement for any national legislation or 
treaty reorganization with South Korea.
    Senator Stevens. One further. What is the time frame for 
each of you in the changes that you envision?
    General Jones. Sir, we are operating under a near-, mid-, 
and long-term plan. Near-term is 2 to 3 years. Mid-term is 5 to 
8, and long-term is 8 to 10 or 12.
    General LaPorte. The same time period that General Jones 
stated is what we are operating under.
    Senator Stevens. Thank you very much.
    Thank you very much, Madam Chair.

                       NON-ENDURING INSTALLATIONS

    Senator Hutchison. Thank you, Senator Stevens.
    First, I want to ask--I think, General Jones, you mentioned 
this, but do either of you have any military construction 
projects ongoing in bases that you do not consider to be 
enduring?
    General Jones. I am sorry, that we do not consider to be--
--
    Senator Hutchison. Enduring.
    General Jones. Oh, enduring. We probably have some projects 
that are in the defined Tier II and Tier III category, and we 
have decided, upon reexamination of both of those categories, 
that we should not continue to invest any funds in those 
particular installations. So whatever we have will be stopped.
    Senator Hutchison. And, as I understand it, you are also 
reevaluating your Tier I installations----
    General Jones. That is correct.
    Senator Hutchison [continuing]. With the thought that there 
would be no 2004 money going there, as well if----
    General Jones. We will not invest, and will not request any 
money for any installation in Europe that is not of 
strategically enduring value.
    Senator Hutchison. And what would be your--I am going to 
come to you, General LaPorte--but what would be your time table 
on the reevaluation of the Tier I?
    General Jones. I would say that within the next 60 days we 
will have that completely done.
    Senator Hutchison. Thank you. That will certainly meet with 
our time table, because we are trying to delay our----
    General Jones. Yes, ma'am.
    Senator Hutchison [continuing]. Report.
    General LaPorte.
    General LaPorte. Senator, we have two projects from 2000 
that are in the process of being implemented in the Yongsan 
relocation area. It was a medical warehouse and it was a 
modification/renovation of the hospital. Those are ongoing. 
They should be completed in the next 12 to 18 months. There is 
also one barracks from 2002 MILCON that is ongoing. Both of 
these facilities, we believe, we are going to be able to use 
into the future.
    I talked about Yongsan relocation. There will be some U.S. 
forces that will remain in Seoul as part of the United Nations 
Command and Combined Forces Command. They will be able to make 
use of these facilities.
    Senator Hutchison. Other than that, there would be none 
going----
    General LaPorte. No, ma'am.
    Senator Hutchison [continuing]. Out.

                        TRAINING SITES FOR EUCOM

    I have been concerned, from my visits around the world, 
about encroachment on training space at many overseas 
locations. It could be airspace, it could be artillery range. I 
wanted to ask each of you to what extent this has posed a 
problem for you in your areas of responsibility. And are you 
looking at the potential of rearranging your training to 
perhaps do training elsewhere, perhaps even in the United 
States with rotations back in?
    General Jones.
    General Jones. Madam Chairman, as you know, post-war Europe 
has been a tremendously successful period. Entire Nations have 
been transformed into prosperous democracies, and urbanization 
has taken hold in Europe, just as it has in our own country. 
And the bases that were built 40 or 50 years ago in areas that 
were remote locations are no longer remote. And with that urban 
sprawl comes increased concern about the environment, the 
ecology, the noise, just things that are normally attendant to 
military bases.
    And the second thing that has happened is that it becomes 
more costly. As Nations become more prosperous, the cost of 
training goes up. There is not any one thing that has changed 
the environment except that the development of the European 
theater has made it more difficult, particularly on land and in 
air space, to adequately train our units.
    Sometimes the restrictions do not seem to be much; 
sometimes they say, ``Well, we will impose ours on you''--
sometimes they will impose limits on the size of the unit; 
sometimes they will impose limits on the types of weapons that 
you can use. But in the aggregate, it becomes harder. And like 
all militaries, we tend to look for areas where we can go and 
get the units trained for the important work that they do.
    And training is extremely important, particularly as we go 
into a high-tech force in the 21st century. The transformed 
force requires training so that we can eliminate the problems 
that face us on the battlefield when we have to fight the 
Nation's battles.
    So we are always looking for ways to train better, and some 
of those bases might be back here at home, some might be 
elsewhere in our own theater, and we pledge to you that we are 
going to do a continued examination to try to find where we can 
train most efficiently and in accord with the environment that 
we happen to be in.
    Senator Hutchison. Well, one of the reasons that we have 
introduced our legislation to evaluate our overseas bases is to 
try to have all of the information on training constraints and 
other problems as we go into the 2005 BRAC. Because if 
significant units are going to be brought back, of course, we 
want to make sure we do not close a base that we are going to 
need, particularly a big training area. So that certainly will 
be part of the overall 2005 BRAC.
    General Jones. Absolutely.
    Senator Hutchison. General LaPorte.
    General LaPorte. Senator, we have over 90 camps and 
stations; and at the end of the war, we basically went aground 
where the units were and established these camps. They used to 
be at the end of dusty trails. Today, most of these camps have 
been engulfed by significant development. The prosperity of 
South Korea has caused a boom in the construction arena.
    So encroachment is an area that I am very concerned with 
and we work very hard on. Unfortunately, last year we had an 
accident as a result of encroachment because of the congestion 
associated with moving to and from a training area. So we are 
very concerned about this.
    One of the main tenets of the Land Partnership Plan is to 
address this, to move away from the crowded residential urban 
areas, such as Seoul and some of the other very congested 
areas, and move our assets to areas where we are able to 
conduct our training. We are able, with the Land Partnership 
Plan, to use training areas that, in the past, have been just 
for the ROK military; but part of the agreement was to give 
them back land and to get training time on those training 
areas.
    As we look to the future, the force we have will have more 
of a regional role, in terms of regional stability, so there 
will be training opportunities off the peninsula to look at. We 
are examining those now. Encroachment is a concern. At this 
point in time, we are able to meet all our training objectives, 
and we are just going to have to continue to work this.
    Senator Hutchison. Thank you, General LaPorte.
    I am going to come back with other questions, but I did 
want to pass it down.
    Senator Feinstein.

                  COST FACTORS IN EUCOM TRANSFORMATION

    Senator Feinstein. Thanks very much, Madam Chairman.
    Let me begin with, if I might, General Jones. As you were 
speaking, General, I was reading your written statement, and it 
is really a very solid statement. I think you point out that 
your area of responsibility includes 93 sovereign Nations and 
stretches from the southern tip of Norway to the southern tip 
of South Africa, from Greenland to the west, to Russia's 
eastern coastline. You are right, it really is a misnomer to 
say it is the European Command, because it is such a vast area.
    As mentioned in your statement, on page 4, you point out 
the crossroads of two centuries, departing from territorial 
defense and shedding the limitations of 20th century warfare to 
a very different--from symmetrical to asymmetrical responses. 
And you go on and make the case for a major reevaluation. And 
in the study that was just concluded, you determined that 80 
percent, or 402, of the existing 499 installations in theater 
were judged to be of enduring value.
    This morning, the Washington Post discussed your plan to 
develop new, quote, ``bare bones,'' end quote, training bases 
throughout Europe, and the article mentions ``relatively modest 
construction costs.''
    I do not see how they can be relatively modest if you have 
402 of 499 installations in theater of enduring value and yet 
knowing what you have to do to reposition and redeploy. Can you 
make further comment on the ``relatively modest'' figures?
    General Jones. Yes, ma'am, I think I can.
    The first point I would like to make is that the Tier I 
strategically enduring value judgments were made in 2002. I 
mentioned in my opening statement that we are reevaluating 
those, as well, and it is work in progress. I am not convinced 
that all of those are absolutely of strategically enduring 
value.
    So my commitment to you is that we will complete that 
reevaluation. We have already done Tier II and Tier III, and 
that is beyond us, but we are re-looking of Tier I, as well.
    Now, I also suggest that an installation, by DOD 
definition, can be as small as an antenna surrounded by a 
fence, and you may have a base with 14 installations on them. 
So when we say 499 installations, we should not confuse that 
with bases, because that is not the case.
    With regard to the future and the term ``modest 
investment,'' I use that term in terms of the size of the 
investment to be required. If, for some reason, we decided to 
shift one of our very strategically enduring locations, and I 
publicly used the example of Ramstein Air Base, and the huge 
cost--huge cost--it would take to simply move that facility 
somewhere else in our theater simply because we would judge it 
to be more useful elsewhere, I would think that we would not 
want to assume that kind of a burden.

                       CATEGORIZING INSTALLATIONS

    The proposal that we are working on is to identify truly 
bare-bones facilities, truly lighter footprints that can 
accommodate rotational forces, that are there for limited 
periods of time, that can practice the strategy of engagement 
along with a strategy of strategic response to a crisis, that 
can be built at comparatively very modest costs and can be 
easily contractible from being an active base to not-so-active 
base to a cold base, where we could use our strategic 
flexibility using forces that emanate both from the theater and 
from the continental United States or, frankly, anywhere else 
in the world if we wish to do so, as opposed to the 20th 
century model where we built what I call ``Small City, USA,'' 
with families and schools and basing infrastructure and PXs and 
commissaries and everything else that goes with the traditional 
mindset of an American base in the 20th century.
    I believe that we can identify the few strategically 
enduring installations that we would not want to pay the kind 
of money we would have to pay--i.e., a Ramstein Air Force 
Base--and use the strategic enduring installations as 
springboards to these smaller, more remote locations, that 
would, by comparison, be very, very modest, in terms of an 
investment.
    So it is a comparison between a 20th century model of a 
base, that was very useful to us, and the fact that the world 
has gotten smaller and we can project power coming from 
different parts of the world to do those things that we wish to 
do at a significantly--at a fraction of the cost that it would 
take to rebuild a 20th century base.

                           ROTATIONAL FORCES

    Senator Feinstein. Would that envision, then, a different 
rotation system? You would not bring families, for example? It 
would be, I guess, a base similar to that which was built in 
Kosovo, for example?
    General Jones. Camp Bondsteel would be a good example of 
what I would term a forward-operating base. I also would 
envision a family of forward-operating locations which would be 
much more modest than the forward-operating base. And the units 
that would visit those bases and operate from those bases would 
be generally rotational, whether they come from the theater or 
from the United States, and they would be there for temporary 
periods of time to do a specific mission, and then they would 
leave.
    And we are working with the services, principally the 
United States Army, because this is the service that has the 
most transformation, the most difficult time with this concept. 
But we are making good progress, and I think we will be able 
to, in time, provide a force-basing construct that will support 
a much more flexible basing strategy.

                                 AFRICA

    Senator Feinstein. Is there anything you could tell us at 
this time about Africa and what your plans would be in that 
area?
    General Jones. Thank you for that question, Senator. I 
appreciate that, because I think Africa is a continent that is 
going to be of very, very significant interest in the 21st 
century, and I think it is only a matter of time. It is 
assigned, with the exception of several countries around the 
horn of Africa, to the European Command. And, as you have 
correctly stated, it is a little bit of a misnomer to think of 
the European Command as simply in Europe. It is not.
    We have had an engagement strategy in Africa that has been 
largely reactive, reactive to crisis. Where we have had a 
proactive strategy, it is generally been confined to special 
operating forces, very small, focused efforts that have been 
important. But, in my estimation, we will have to do more in 
the future.
    I am concerned about the large, ungoverned areas of Africa 
that are possibly ``melting pots for the disenfranchised of the 
world,'' so to speak, the terrorist breeding grounds, 
criminality, people who are being recruited as we speak to rise 
up against the developed world and the democracies that enjoy a 
peaceful and prosperous way of life. And I believe that we are 
going to have to engage more in that theater.
    And part of the basing realignment and proposals that we 
are coming up with will establish some footprints at a very low 
cost, and very low manpower cost, as well, but we will 
hopefully see more visits and more presence by our American 
forces, and maybe even coalition forces, coming from the 
European theater to begin to stem the tide of what is going to 
be, I think, an extremely difficult story with regard to the 
developments of not only the southern rim of the Mediterranean, 
but sub-Saharan Africa, as well.
    Senator Feinstein. Thank you very much because, you know, 
many of us think that we have really ignored Africa, at great 
peril for the future, for exactly the reasons you are saying 
and actually looked away when huge atrocities were committed 
involving literally the destruction of millions of people. And 
I think once we let that get started, America's credibility is 
diminished, so, at the very least, we can say that there is 
going to be additional attention, and I think that is very 
welcome. So thank you.
    General LaPorte, you mentioned, in your opening comments, 
about something that we well know, and that is the 
extraordinary value of Yongsan in won or dollars, and the plans 
you have for the future of the Alliance Policy Initiative and 
the impact of that on the Land Partnership Program.
    I would like to know the extent to which this has been 
discussed with the Government of South Korea, the extent to 
which the South Korean Government looks favorably upon this, 
and the degree to which they will help in its implementation.
    General LaPorte. Senator, the meeting in December, which 
was held here in Washington, the Security Consultative meeting 
between Secretary Rumsfeld and the Minister of National 
Defense, directed this Future of the Alliance Study.
    Senator Feinstein. Could I ask you to speak a little more 
loudly? I have a cold, and both of my ears are plugged, so I am 
kind of straining to hear.
    General LaPorte. The SEM directed us to do a Future of the 
Alliance Policy Initiative. We have started those negotiations. 
Department of Defense policy is working with Ministry of 
National Defense policy. The first series of talks have been 
conducted. They were conducted at the end of April. They will 
have future talks in May. So the discussions on the roles, the 
missions, the force alignments, is ongoing.
    The first decision that has come out, of significance, is 
the Yongsan Relocation, where the Republic of Korea Government 
has endorsed the relocating of forces in Seoul south to Camp 
Humphreys, which will be an enduring installation. As part of 
the agreement, the South Korean Government will defer all costs 
associated with the procurement of land and the movement of 
facilities to that area.
    Minister of Defense Cho has given us a letter of 
commitment, through the Secretary of Defense, to purchase the 
needed land, and they will purchase that in their fiscal year 
2004 budget. So the discussions have really gone well up to 
this point, and the commitment from the South Korean Government 
has been exceptional. So I am very confident, as we continue 
these discussions and address the other issues on the table, we 
will get similar results.
    Senator Feinstein. When I was there in December with you, 
there was some concern about South Korean acceptance of our 
military. Could you update us on that? And could you also tell 
us, very briefly, what you have done to try to intermesh with 
the community on a greater basis?
    General LaPorte. Following the tragic accident that we had, 
there was some anti-American sentiment expressed, primarily 
through demonstrations. And that continued throughout the month 
of December. Following the national elections, the 
demonstrations just dropped off almost totally.
    Recently, I have been asked several times, ``Is there a 
crisis in South Korea?'' And my answer is adamantly, ``No, 
there is no crisis in South Korea.'' There would be a crisis in 
South Korea if they did not hold free and democratic elections. 
There would be a crisis in South Korea if the people of South 
Korea could not gather and speak their mind. There would be a 
crisis in South Korea if the civilian leadership did not 
control the military. Or there would be a crisis in South Korea 
if the people were unable to worship the way they want.
    Senator, last week, my wife and I went to a Korean church. 
There were 10,000 people present. And as I walked in, the 
minister said, ``They are praying for you and the United States 
Forces Korea.'' So we are getting tremendous support from the 
Korean people.
    We have developed a Good Neighbor Program. This is designed 
to increase our interaction with the media, with the 
universities, with the surrounding communities, with the other 
military units. It is an outreach program. It is working very 
well. This month, we will have a--May is Good Neighbor Month 
for U.S. forces in Korea. We have tremendous programs where we 
are teaching English in schools. We have adopted orphanages. We 
are working with the military units on better ways to move on 
the roads, to coordinate with the local authorities. So we are 
putting a great deal of effort at every level to ensure that we 
have good relationships, and I think we are seeing the benefits 
of that. The South Korean people are fully in support of the 
United States Forces Korea being on the peninsula.
    Senator Feinstein. Thanks very much, General LaPorte, 
General Jones.
    Thank you, Madam Chair.
    Senator Hutchison. Senator Landrieu.
    Senator Landrieu. Thank you, Madam Chair, and I thank the 
Ranking Member, as well, for their attention to this very 
important subject. And I wanted to just stop by today briefly. 
I am not going to be able to stay for the entirety of the 
meeting.
    But I did want to, General Jones, just commend you for your 
work in this area as you outline your vision for the direction 
for our transformational force. As you know, I had the 
opportunity over the break to be in Romania for two purposes, 
one of which was military purpose--and had a chance to visit 
the--I do not even want to use the word ``base,'' but the 
footprint, the hole that we have near Constantza for the 
operations in Iraq, which was extremely helpful. And the morale 
was very high, and what I witnessed and saw there was just a 
good partnership between the Romanian Government and our 
forces, in terms of our current operations. In looking at the 
map, having a location so close to the Black Sea, if it would 
be in Romania or Bulgaria, I think, is just crucial to our, you 
know, transformational-force concept of being able to launch 
with as little restriction and complication as possible to 
parts of the world that may need our attention.
    So I just wanted to commend you and to, again, say that, at 
least from my brief visit, and it was brief, I feel that the 
Romanian leadership would be very open to work with us, you 
know, in the appropriate ways if that would be what we would 
have in mind.
    Secondly, to say that realigning our bases in Europe in our 
current position, I think, makes a lot of sense, to sort of 
minimize our footprint where we are not so much needed, and try 
to be more strategically placed.
    I also want to support Senator Feinstein's note about 
Africa. I do think it has been a continent that has not 
received the kind of attention that it should and most 
certainly deserves, not just because of its largeness and not 
just because of its future economic opportunities, but also 
because of the complicated politics of a Nation that is, in 
some ways, still very underdeveloped in certain areas--there 
are some very developed areas--and the potential for 
fundamentalism to creep into a situation where there is some 
hopelessness, and for us to be able to be there, if possible--
we cannot be everywhere, but I want to just support that 
concept.
    Thirdly, I wanted to say I read in the paper somewhere, or 
maybe heard somewhere on the news, maybe it was a commentator, 
that said something like we need to be careful, Madam Chair, to 
not go where we are not welcomed.
    I would just want to say that we need to be where we are 
needed. And it would be nice if we were welcomed everywhere, 
but I am one that wants to be where we are needed; to be with 
our partners, to be where we are needed, to kind of carry out 
this new transformation vision. So I would hope that we would 
be guided by that fact and not just necessarily where we are 
welcomed.
    Now, that is not to say that you can bust your way in 
through every door, but I want us to be, you know, forward 
thinking and fairly aggressive in this strategy, would be, you 
know, my thinking about it.
    And, finally, I just want to commend both of you all. My 
experience now--it is just a few years, on the Armed Services 
Committee--Madam Chair, I have had the chance to visit a few of 
our installation bases around the world and, of course, through 
our country. And I want to say I do not think the military gets 
enough credit for the diplomats that you are, for the work that 
you do in terms of improving relations between countries, 
between the way--soldiers to soldiers. You may have on a 
different uniform, but fighting sometimes for the same cause. 
And I find that to be very, very helpful in America's efforts 
to get out our message, to express our values, to give an 
example of what our values are--not just talk, but actions.
    And I wanted to come to this Committee just to compliment 
you all and to say that I want to be a stronger voice in 
complimenting what the military does, because serving in 
orphanages and teaching English in school and helping the local 
people--people in Louisiana appreciate the military presence in 
Louisiana. We appreciate what the military does. And I think--
and I have witnessed and seen, other countries appreciate the 
communities, the military presence, and the good job that you 
all do as good neighbors.
    So that is just really why I wanted to come by today and 
wait my turn to speak. I have some questions, Madam Chair, to 
submit to the record, and I look forward to working with you 
and the Ranking Member, because this is a very important 
realignment, and I think this work is extremely important, that 
it get done correctly.
    Senator Hutchison. Thank you, Senator.

                          HOST NATION SUPPORT

    I would like to ask a couple of other questions, and then I 
will see if there are others from Senator Feinstein.
    I would like to know, in your two areas--now, your area is 
so big, I am really talking about Europe here--what the host-
Nation support is. And then, in Korea, what is the host-Nation 
support? Because one of the criteria we will be using in 
looking at the overseas basing is, What are the host Nations 
doing in support of our troops, and, therefore, what kind of 
efficiencies do we have?
    General Jones.
    General Jones. Thank you, Madam Chair.
    The European model does not lend itself quite to an easy 
answer in this regard, because it was not established at the 
same time as, for example, the model that--what we have in 
Japan, which I am very familiar with. And that proportion of 
host-Nation support, otherwise known as burden sharing, is a 
difficult one to grasp in Europe.
    But while we do not have the similar type of agreements 
that we have in the Asia Pacific theater, we do have agreements 
that focus on access and use of host-Nation infrastructure, for 
example, that may come to us at no cost, or special agreements 
on construction with regard to who builds it and when it 
returns back to the host Nation. With Turkey, for example, we 
have the Turkish Construction Circular. And we have an 
agreement called the Shell Agreement with Italy. These 
agreements address the way we will do construction with those 
Nations.
    The closest thing we have to infrastructure burden sharing 
is the NATO infrastructure program, and we are studying the 
2,907 agreements for burden sharing to see if we cannot provide 
a better analysis. And if I could come back to you with a more 
complete answer on that, I would appreciate it, because it is 
extremely complex.
    But what I would say, by way of a contemporary answer, is 
that, over the last 6 months, an equivalent of $127 million has 
been contributed to the United States by 27 Nations within the 
European theater for primarily force protection and use of 
their fields and ports which have facilitated our mission--
Germany, $33.75 million; the United Kingdom, $24 million; 
Greece, $16 million; Turkey $11 million; Spain, $9 million; 
Hungary, $7 million; Romania, $7 million; and Italy, $4 
million.
    So I would like to respond to the question for the record 
with the details that you deserve, but it is not quite as self-
evident as it is in Asia.
    Senator Hutchison. Well, it could be that as we go down the 
road and we are making decisions on bases, that we could be 
more specific----
    General Jones. Clearly.
    Senator Hutchison [continuing]. Because it will be part of 
the commission that we hope to set up. Part of their evaluation 
would include----
    General Jones. Clearly.
    Senator Hutchison [continuing]. Host-Nation support.
    General LaPorte.
    General LaPorte. Senator, we receive both direct and 
indirect support from the Republic of Korea. Indirectly, we 
receive support in terms of use of their ranges, use of their 
facilities.
    Force protection is provided by the Korean National Police 
at all our installations. An example would be within 24 hours 
after 9/11, South Korea put 5,000 Korean National Police as a 
force-protection force around all our installations in Korea. 
Today, they still have the Korean National Police serving as a 
force-protection element. That saves us significant dollars and 
also service-members' time.
    Direct investments, I will just give you some examples. In 
2001, South Korea provided $425 million; in 2002, $490 
million----
    Senator Hutchison. Put that in percentages of the total.
    General LaPorte. It is probably about 40--somewhere about 
40 percent, Senator.
    And then, this year we are scheduled to receive $540 
million; and in 2004, it is estimated to be approximately $595 
million.
    Senator Hutchison. You are in the 40 percent range?
    General LaPorte. Yes, ma'am.
    Senator Hutchison. I want to ask about the concept of unit 
rotations. The Army is looking at more unit rotations. The GAO 
took a look at the issue in 1994 and identified nearly a half-
dozen times over the years where the Army has tried and halted 
various efforts to employ the unit-rotation concept overseas. 
And, General Jones, unit rotations are very much a part of your 
concept, but not so much yours, General LaPorte.
    I wanted to ask you if it is something that could be done 
in Korea as a way to once again assure the training 
capabilities, or is it not as appropriate? And is it possible 
for the Army to have a unit-rotation system in Europe, but not 
in Korea?
    I would start with you, General LaPorte.
    General LaPorte. Senator, when I went to Korea last year, I 
talked to all the service chiefs of staff, and one of the 
topics we discussed was the potential for unit rotations. And I 
told them I had a very open mind and would be willing to look 
at where this would be an appropriate strategy.
    As you are well aware, we have a threat, a North Korean 
threat, that we must address each and every day. That does not 
mean that everyone has to be on a 1-year assignment. We are 
looking at it, we are talking, especially to the United States 
Army, the possibility of unit rotations--for instance, the 
Patriot batteries that are securing the air fields at Osan and 
Suwon. That is a similar task to what takes place in Kuwait and 
what used to take place in Saudi Arabia. So, theoretically, you 
could have those battery-sized locations. A battery would be 
about, say, 100 or 115 people. They could come to Korea on a 
rotational basis. So we are looking at that.
    It becomes challenging when you get into the headquarters 
elements and you get into the combat brigades that are up in 
the 2nd Infantry Division. But I will tell you, we have, the 
Army has, a significant study looking at this. I have talked to 
General Jumper about this, in terms of Air Force assets. So we 
are going to continue to aggressively look at this.
    Senator Hutchison. Anything that you would add to what you 
have already said?

                      UNIT ROTATION IN U.S. EUCOM

    General Jones. Yes, ma'am.
    We have, actually, a success story in unit rotation in 
Europe right now with the Army. All of the forces in KFOR in 
Kosovo and in Bosnia are National Guard units. The one in 
Bosnia is from Minnesota, and the one in Kosovo is from 
Pennsylvania. And these units come over on a 6-month rotation. 
They are among the most motivated National Guardsmen I have 
ever seen. They love what they do. They come into the theater, 
they make a tremendous difference, and then they go home to 
their home base.
    I want to emphasize something that General LaPorte said, 
because I think we have to be careful of what unit rotation is 
and what it is not. What it is, is that you can rotate combat 
forces, particularly light combat forces, to make a tremendous 
presence felt over a much wider area within our area of 
operation.
    I do not face the symmetrical threat that General LaPorte 
faces, and his calculus on the type of force he needs in place 
ready to respond is different from mine, because mine is more 
asymmetric. Since the disappearance of the Soviet Union as a 
threat, we are an asymmetric-based organization.
    But we can, through the proper disposition of equipment and 
combat support and combat service support that would be pre-
staged and pre-based, rotate the combat forces that would be 
lighter, more agile, more deployable that would come into the 
theater, train, operate, train, influence, shape, engage, 
whatever the case may be, and then return home to their home 
bases, whether they be in Europe or whether they be in the 
United States or sometimes, if the Korean were--or Korean 
theater is peaceful, maybe General LaPorte will send us some of 
his units, as well.
    Senator Hutchison. I was not really thinking of Guard and 
Reserve. I was thinking more of active duty, if that could be 
part of the----
    General Jones. I wanted to give you an example of a 
success, and----

                       ACTIVE DUTY UNIT ROTATION

    Senator Hutchison. Yeah. I have to say, with all due 
respect, that the leader in the effort of command and control 
by a Guard unit was the Texas unit that went to Bosnia. And I 
think that was the test, and they passed, and I think that 
really led the way. I happened to know, because I visited them 
when they were there, and it was just a wonderful experience, 
and it was something that a Guard unit could do that kept you 
from having to use active duty. But I was really thinking--in 
the active-duty terms, can you also do the rotations 
effectively and still stay up to speed and trained?
    General Jones. This is an issue that we are currently 
working on with General Shinseki and the U.S. Army, because 
they will have to respond to the input from other commanders, 
like myself, who make demands on types of units.
    But I think one point that I would like to make is that as 
we adjust our footprint, as opposed to the last time, 10 years 
ago, or 11 years ago, where we did a force drawdown in Europe, 
that force disappeared from the active structure. The 7th Corps 
disappeared from the active structure. This time, I have to 
emphasize that no one is talking about end-strength reductions. 
This is a very important distinction.
    And for a theater commander, such as myself, if we achieve 
a different basing modality from the standpoint of permanent 
infrastructure, large number of families, huge infrastructure 
costs, it will be because we can do a different--we can solve 
the problem differently with these rotational forces. But if we 
send forces home from Europe, it will be with the expectation 
that the Army, the Navy, the Air Force, and the Marine Corps 
will be able to replace in kind on a rotational basis the 
forces that we still need. So it is not a zero-sum game.
    And so I think, with regard to the Army, that is a more 
difficult challenge, and we all know, because--we all know why. 
But I think we are going to work our way through it.
    Senator Hutchison. Thank you.
    Senator Feinstein.
    Senator Feinstein. Thank you very much.

                        FORWARD OPERATING BASES

    A technical question, General Jones. We could not identify, 
in the budget document, the funding for the planning and design 
for the forward-operating bases in Eastern Europe. My 
understanding is you may want to plan and design for that, and 
perhaps in Bulgaria and Romania. How much money do you need for 
planning and design in 2004? Is it six or seven?
    General Jones. I requested, I think, $6.8 million--$6.85 
million.
    Senator Feinstein. So it is $6.5 million. That takes care 
of that.
    General Jones. And that would be to do the surveys and all 
of the studies and the--because some of these areas are still 
relatively unknown to us.

                         EFFICIENT BASING SOUTH

    Senator Feinstein. One of the things that I got involved in 
was the Efficient Basings South, when General Meigs was in 
command. And I had an opportunity to visit--I think I mentioned 
this to you--Camp Ederle in Vicenza, which, as you know, is an 
urban base in the middle of the city. And to move troops out, 
you have to drive them 2\1/2\ hours to Aviano. And we have not 
had any requests that I could see for any additional MILCON at 
Aviano.
    You added, I gather, a second airborne battalion to the 
173rd Airborne Brigade, and I think 22,000 of those dropped 
actually in Iraq----
    General Jones. Uh-huh.
    Senator Feinstein [continuing]. If my memory serves me 
correctly.
    General Jones. Correct.
    Senator Feinstein. My question is, What lessons have you 
learned from that? And do you think that Ederle is going to be 
adequate for these needs? And Aviano, as well?
    General Jones. I think the utility and the wisdom of the 
investments that we have made in that particular region and 
that particular unit are really an example of the kind of 
forces that we need in Europe for the future. They are 
expeditionary by nature. They did participate in a combat drop 
into Northern Iraq.
    As you know, when the discussions with the Turkish 
Government did not materialize with an agreement to be able to 
introduce the 4th Infantry Division by land, we had to come up 
with another scheme, and we successfully introduced almost 
6,000 soldiers, sailors, marines, airmen, into Northern Iraq by 
air. And the first regular unit that was in there, conventional 
unit, was the unit from SETAF stationed in Vicenza, the 173rd. 
And I think this kind of unit is extremely useful for the 
theater because of their agility and their mobility and their 
proximity to Aviano. I would favor considering still another 
battalion to round out the unit. If it were left up to me, I 
would probably grow that unit even by one more battalion, 
because----
    Senator Feinstein. In Camp Ederle?
    General Jones. In the area, in the vicinity. Perhaps not 
quite specifically there, because, as you said, space is very 
tight. But it is, geostrategically, very well located, in terms 
of the theater and in terms of the potential threats in the 
east and the south, and can be deployed very quickly, as we saw 
in the Iraqi Freedom Operation. So it is a very, very 
important, strategically important, area for us and a very 
modern capability that we will need in the 21st century.
    Senator Feinstein. But is there anything in this budget 
having to do either with expansion at Aviano or Ederle?
    General Jones. For Efficient Basing South, deployment 
facility phase one at Aviano, $15.5 million. For deployment 
facility phase two at Aviano----
    Senator Feinstein. Excuse me. For a deployment facility?
    General Jones. Uh-huh.
    Senator Feinstein. Which would be exactly what?
    General Jones. Essentially to facilitate the throughput of 
deploying forces from that region and facilitating the 
difficulties that you--including the modalities and basing 
arrangements to facilitate the rapid departure of troops and 
also the reentry of troops.
    And then we have $16.4 million earmarked for Vicenza, as 
well.
    Senator Feinstein. That is about a total of $30 million, 
then, to improve----
    General Jones. $34.9 million, to be exact.
    Senator Feinstein. 34----
    General Jones. Yes, ma'am.
    Senator Feinstein [continuing]. To improve deployment and 
basing----
    General Jones [continuing]. Environmental support----
    Senator Feinstein. [continuing]. At Ederle and----
    General Jones. Vicenza.
    Senator Feinstein [continuing]. Aviano Air Base.
    General Jones. Yes, ma'am.
    Senator Feinstein. Okay, that is what I wanted to know. 
Thank you very much.
    General Jones. If I could just add another remark to that. 
The Joint Deployment Training Facility provides the heavy drop-
rigging facility for the SETAF of the 173rd Brigade to deploy 
from Aviano during contingency operations, will provide space 
to support 1,000 deploying soldiers, 20-ton overhead lift for 
heavy drop-rigging, parachutes shakeout, drying tower, 
rollarized floor for heavy drop-rigging, and air/land 
palletization, a wash bay for preparation of vehicles for air/
land--quite a bit of capability there.

                         RELATIONSHIP WITH NATO

    Senator Feinstein. Thank you very much.
    As the SACEUR, would you care to comment on your role in 
revitalizing the United States and NATO relationship?
    General Jones. Well, I am privileged, Senator Feinstein, to 
have my second assignment to be the commander of the Allied 
Command in Europe. This is also a transformational period for 
the alliance. As you know, the traditional role of the Supreme 
Allied Commander Atlantic will change very shortly to be the 
Allied Commander for Transformation, and that is why the 
European theater--I am sorry, the NATO theater--the European 
theater has expanded by air and sea, because I have been 
assigned the previous operational area that SACLANT used to 
have.
    The military portion of the alliance is very strong, very 
robust. Senator Landrieu pointed out that the engagement yields 
have tremendous dividends. And after the many years of the 
alliance, we have formed lifelong friendships and partnerships 
across the 19 member Nations. And the military portion of the 
alliance is very robust and very strong, and it survives all 
kinds of strains and pushes and tugs as the diplomatic and 
political debates rage on around us.
    We are in the business of transforming NATO. NATO, as a 
political alliance, has signaled the strong message that 
members desire to expand the alliance. And as the leader of the 
military portion of that alliance, we are working hard to 
develop the NATO Response Force, which will be the engine of 
transformation for the 21st century military alliance 
capability. And this is very exciting and very promising work.
    And it provides, really, the framework for what the U.S. 
European Command is doing. As NATO expands, so, too, must we 
reevaluate the U.S.'s contribution to the alliance. But being 
able to do both of those things simultaneously is a real 
privilege and something that I----
    Senator Feinstein. Just let me tell you where I am going, 
and you might not want to comment. But when you told me the 
sheer size of the NATO military force, I found it just 
unbelievably large, at well over 2 million. And yet the basic 
inability, at least apparently, to really participate 
efficiently and quickly in any military action that might take 
place, it made me--last evening, I was thinking about whether 
the NATO people are aware of that and the fact that by their 
very bulk in size there is an obsolescence that tends to set in 
because they cannot be relevant in what you describe as the new 
asymmetrical world.
    General Jones. This is why I use the term ``NATO at the 
crossroads,'' because NATO is what it is today because of a 
very--the most successful military alliance in history. It has 
served its purpose as a defensive alliance. We built it a 
certain way. America was privileged to lead. That threat went 
away as a symmetric threat, and now we are in the business of 
reshaping the military arm that undergirds the alliance in such 
a way that it will be more useful in the future.
    On the one hand, it is extremely large, with 19 sovereign 
Nations, each of which have to decide for themselves what they 
want in their own individual militaries. My job is, I believe, 
to signal to those 19 Nations what we think, in NATO, is 
militarily relevant to the future challenges of NATO, and the 
instrument of that change will be the NATO Response Force.
    Nations will have to decide for themselves how big they 
wish their forces to be and, more importantly, how they wish to 
shape those forces. And it is a fascinating dialogue, to be 
able to go from one country to the other to present the concept 
of NATO transformation through the NATO Response Force and to 
engage in the dialogue that goes through as to how do Nations 
contribute to that NATO Response Force.
    My feeling is that, as we go down this trail together, that 
we will produce something that will be very relevant, but it 
will be different than the large monolithic threat-based 
symmetrical response force that we have had, and that NATO will 
kind of go through something that the United States went 
through in the last 10 years of gradually shrinking and 
collapsing the capabilities that are not terribly useful in the 
21st century and hopefully generating some resources from 
within to transform the force into a capable NATO Response 
Force that we all seek and the United States would absolutely 
welcome in the 21st century.
    And so I am extremely optimistic about our direction, and I 
find it very exciting to be able to participate in this 
process. It will take a little time. It will take some focus. 
But to give you a sense of how quickly things are moving, it is 
hoped that at the June ministerial that the NATO Response 
Force, which was stipulated at the Prague summit as something 
that the Nations wished to do, will receive the endorsement of 
the Ministers as saying that we endorse the concept. And by 
October of this year, we hope to be able to have available for 
other Nations to see a sample of the most expeditionary piece 
of the NATO Response Force with, say, something between 2- to 
5,000 integrated air, land, and sea forces that will be 
presented as an example of how NATO can go if it wishes to do 
so in the future. And I think this is very exciting.
    Senator Feinstein. I just want to say at least this Senator 
thinks you are really on the right track. And I think, in terms 
of really satisfying a basic need, that this is really the way 
to go. And I really very much hope that you have the 
cooperation of all those Nations that are a part of NATO.
    And I know that politically the mass means something, but 
strategically I do not really think it does. And so I think you 
are absolutely right in the direction in which you are going, 
and----
    General Jones. Thank you.
    Senator Feinstein [continuing]. To have a really leaner, 
more mobile, more modern, more transformed force would be much 
more effective in the future, and I think this is really very 
smart thinking. I just want to say that.
    General Jones. Thank you, ma'am.
    Senator Feinstein. Thank you.
    General Jones. And may I say that I am receiving--we are 
receiving, those of us who are doing this work--we are 
receiving enthusiastic support by all member Nations who, one 
at a time, have told me that they consider the NATO Response 
Force to be extremely important, and they are all looking at 
ways in which they can make a contribution, and I find that 
very uplifting.
    Senator Feinstein. Thank you very much.
    General Jones. Thank you.
    Senator Feinstein. I appreciate that. And thank you, 
General LaPorte.
    That concludes my questions.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Hutchison. Well, thank you. This has been very 
helpful. I appreciate so much--you both came a very long way to 
be here, and I am so pleased that we really were able to work 
before this. I think you have started on a path that is going 
to transform the military and certainly start the thinking 
process for assuring that we are spending our dollars on the 
strategic needs that our country has. And I appreciate both of 
your service very much and look forward to continuing to work 
with you.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

           Questions Submitted to General James L. Jones, Jr.

          Questions Submitted by Senator Kay Bailey Hutchison

                             BASING CONCEPT

    Question. You envision a basing concept that employs semi-permanent 
bases that do not have full support facilities. Can you elaborate on 
that concept and describe in more detail what such a base would look 
like and how it would differ from a traditional European base? In 
general terms, how many such bases would be required?
    Answer. Our concept involves a network of Joint Main Operating 
Bases, Joint Forward Operating Bases, Joint Forward Operating Locations 
and Joint Pre-positioned Sites. This network will transform Unites 
States European Command's (USEUCOM's) operational flexibility to better 
prosecute the war on terrorism, respond to crisis, conduct security 
cooperation, increase stability in the region and maintain operational 
readiness through enhanced training and exercises. Our concept includes 
a reduction of permanently assigned forces to USEUCOM thereby allowing 
us to reduce the number of large main operating bases required to 
support the families and services associated with permanently assigned 
forces. An essential element of our concept is the increased reliance 
and use of forces that are rotated from the United States to Europe in 
order to conduct training exercises and other security cooperation 
activities in order to maintain a United States presence. These 
rotations would be for a short duration, perhaps 3 to 6 months, and the 
troops would use Joint Forward Operating Bases and Joint Forward 
Operating Locations as their logistical hubs.
    The following characteristics of Joint Main Operating Bases, Joint 
Forward Operating Bases, Joint Forward Operating Locations and Joint 
Pre-positioned Sites helps to explain the concept and shows how they 
differ.
  --Joint Main Operations Base (JMOB).--Strategically enduring asset 
        established in friendly territory to provide sustained command 
        and control, administration, and logistical support in 
        designated areas. Ramstein Air Base, Germany, is an example of 
        a JMOB.
  --Joint Forward Operating Base (JFOB).--Semi-permanent asset used to 
        support tactical operations without establishing full support 
        facilities. Can be scalable, and may be used for an extended 
        time period. May contain pre-positioned equipment. Backup 
        support by a JMOB may be required. Camp McGovern, Kosovo, is an 
        example of a JFOB.
  --Joint Forward Operating Location (JFOL).--Expeditionary asset 
        similar to a Forwarding Operating Base, but with limited in-
        place infrastructure. May contain pre-positioned equipment.
  --Joint Preposition Site (JPS).--Sites that contain pre-positioned 
        war reserve materiel (Combat, Combat Support, Combat Service 
        Support), usually maintained by contractor support.
    The exact number of sites is yet to be determined, however, our 
concept envisions a reduction in the number of JMOBs in EUCOM. We will 
maintain those required and consolidate or reduce the rest. We will 
build a small number of new JFOBs in Eastern Europe and in Northern 
Africa. In order to extend our reach into Eastern Europe and Africa, we 
will develop a series of JFOLs, although total number has yet to be 
determined.

                           NEW ENDURING BASES

    Question. To what extent do you envision having to reestablish new 
``enduring'' bases elsewhere in your command's area of operations?
    Answer. Our proposed strategic transformation concept does not 
establish or build new infrastructure on the level of existing full 
support facilities we have traditionally operated in Western Europe. 
Our vision is to optimize existing installations through consolidation 
and, in some cases, closure, and establish a network of joint forward 
operating bases and locations that provides employment of a rotational 
deployment concept. This structure will ensure increased operational 
capability to prosecute the global war on terrorism, respond to crises 
throughout our area of responsibility, and conduct security 
cooperation, as well as provide increased stability and enhanced 
training and readiness.

                           NEW TRAINING AREAS

    Question. Do you envision establishing significant new training 
areas further East in Europe? If so, what would be the scope of any 
such facilities?
    Answer. Although our forces may not initially enjoy the same level 
of training range capability they have traditionally had at Western 
Europe locations, we anticipate full cooperation of our future host 
nation partners in exercising our military capability to the greatest 
extent possible. Over time, as our joint forward operating base 
infrastructure matures, we envision building up instrumented ranges and 
facilities that will provide fully joint coordinated training between 
our services and allies. Realistic and demanding training has been the 
asymmetric edge of Unites States forces over the past decade. Our 
success in combat, whether ground, air or sea, has been solidly based 
in our training. We believe that new training areas in Eastern Europe 
and North Africa will provide us the opportunity to keep that 
asymmetric edge well into the future.

                             RESIDUAL VALUE

    Question. Has the United States European Command completed 
negotiations for residual value for all of the more than 560 
installations returned during the last decade? If not, how many 
installations are still in negotiation? When will these negotiations be 
completed?
    Answer. No, United States European Command has not completed 
negotiations for residual value for the more than 560 installations 
returned during the last decade.
    There have been 566 installations returned in the last decade. Of 
these 566 installations, only 26 percent, or 149 installations, are 
currently under negotiation and 417 have been completed.
    The host nations significantly impact the negotiation process for 
residual value. Our goal is to conclude these negotiations as quickly 
as possible where no residual value is anticipated. For the remaining 
installations, the goal is by the end of 2004.
    Question. What stumbling blocks have United States negotiators 
encountered during more than a decade of residual value negotiations? 
How might our strategy be adjusted should we return additional 
installations?
    Answer. There have been no stumbling blocks to date. With the 
Federal Republic of Germany, in particular, United States European 
Command has negotiated many technical arrangements over the years that 
have now resulted in a predictable and stable Residual Value 
negotiation environment and fair market returns are being realized. In 
1994, the General Accounting Office validated our Residual Value 
strategy and the Office of Management and Budget has reviewed and 
approved all of our yearly Residual Value packages. Additionally, the 
United States policy in some countries is not to seek Residual Value 
due to overarching United States political goals.
    In compliance with the Commander of United States European 
Command's intent for more forward operating bases and forward operation 
locations in countries where we now have little or no presence, the 
requirement for new construction in our traditional host nations will 
be less. We will be less likely to pursue payment-in-kind as a means of 
Residual Value with our traditional host nations due to the lessened 
requirement for new construction. In accordance with Article 48 of the 
Supplementary Agreement to the North Atlantic Treaty Organization 
(NATO) Status of Forces Agreement, whenever we do not have a need for 
facilities anymore, we must return those facilities as quickly as 
possible.

                          ENVIRONMENTAL DAMAGE

    Question. According to a 1994 GAO report, the extent of United 
States improvement and damages to the facilities in Germany figures 
prominently into the negotiated value. The Status of Forces Agreement 
with Germany explicitly cites environmental damage caused by United 
States forces as an offset of the facility's value. In the past, what 
has been the cost of environmental damage on United States facilities 
that we have returned to Germany and other European countries? In the 
future, will United States facilities that will be returned to Germany 
be evaluated for environmental damage? What are the criteria for 
assessing environmental damages?
    Answer. With regard to the return of property, there has been no 
cost for environmental damage in any host nation other than Germany. 
The cost to date for environmental remediation in Germany occurred 
during the period between 1992 and 1997 for a total of $23.8 million. 
Ongoing negotiations are considering environmental costs as part of the 
final settlement.
    United States facilities returned to Germany in the future will be 
evaluated for environmental damage. Before United States facilities are 
returned, an environmental summary report will be completed. This 
document characterizes the environmental condition of a site being 
returned. The purpose of preparing this report, among others, is to 
establish the environmental condition of the site to assist in 
determining the validity of any claim for environmental damages that 
may be asserted by the host nation following return.
    In Germany, the 1993 Supplementary Agreement to the North Atlantic 
Treaty Organization (NATO) Status of Forces Agreement states that 
German law applies within an accommodation, e.g., a United States 
installation. The appropriate criteria for environmental remediation 
shall be guided by German Federal and Lander (state) laws that serve as 
a framework for soil and groundwater remediation in German states 
containing United States Forces installations.
    As part of Residual Value negotiations, each installation 
identified for realignment is evaluated for environmental damages on a 
site-specific basis, employing a risk-based approach. Neither the NATO 
Status of Forces Agreement nor the Supplementary Agreement specifically 
obligates the United States Forces to accomplish environmental cleanup 
before return. Under Department of Defense Instruction 4715.8, the 
United States Forces are not authorized to expend funds to remediate 
environmental damages after an installation has been announced for 
return unless it is determined that remediation is necessary to avoid 
an imminent danger to life or health or necessary to sustain current 
operations in light of the projected return date. The result of failure 
to clean up the environmental damage before return is that a monetary 
claim may be asserted under Article VIII of the NATO Status of Forces 
Agreement, Article 41 of the Supplementary Agreement or may be set off 
against Residual Value under Article 52 of the Supplementary Agreement. 
The treaty obligation for the United States Forces to bear costs 
arising in connection with the assessment, evaluation, and remedying of 
hazardous substance contamination caused by the United States Forces is 
set forth in paragraph 8bis(b) of the Protocol of Signature Re Article 
63, Supplementary Agreement.
                                 ______
                                 

             Question Submitted by Senator Mary L. Landrieu

            FUTURE BASING ROLE OF EASTERN EUROPEAN COUNTRIES

    Question. General Jones, I recently returned from a trip to 
Romania, where I visited with the 5,000 Marines stationed there. 
Romania is a North Atlantic Treaty Organization (NATO) aspirant, and I 
hope the Senate will soon approve NATO's expansion and membership for 
Romania, Bulgaria, Latvia, Lithuania, Estonia, Slovenia, and Slovakia. 
These aspirants have been members of the Coalition of the Willing, and 
we should be grateful to these burgeoning democracies for supporting 
America's efforts to oust a dictator. In particular, I want to commend 
Romania for housing United States troops, opening its airspace, and 
committing its own forces to the operations in Afghanistan and Iraq.
    Regrettably, our traditional allies Germany and France were 
reluctant to support America's efforts bring freedom to the Iraqi 
people. Additionally, Germany's reluctance to allow United States over 
flight and Austria's refusal to do so complicated the United State's 
ability use its airfields in Germany. United States planes flying over 
Europe en route to the Middle East or United States also had to change 
their routes to avoid flying over Austrian airspace. There is also a 
growing sentiment in Germany against America's military presence in 
Germany. This could potentially create force protection problems for 
our 68,000 troops in Germany.
    Given the change in strategic threats to the United States, the 
lack of support faced by United States forces in Germany and Central 
Europe, and the support found for United States foreign policy and the 
military in Eastern European countries such as Romania, Hungary, 
Bulgaria, and Poland, what role can these countries have in basing 
United States troops? Do you foresee permanent basing of United States 
forces in these countries? Is the United States evaluating whether to 
increase, decrease, or keep constant its troop strength in Europe? Has 
the Department conducted studies to determine the costs associated with 
the construction of new bases in Eastern Europe? If so, what are the 
anticipated costs? If not, please make them available once formulated.
    Answer. Eastern European countries such as Romania, Hungary, 
Bulgaria, and Poland will play a very important role as we transform 
United States European Command (USEUCOM). These countries have the 
potential for hosting new and improved training facilities as well as 
Joint Forward Operating Bases and Joint Forward Operating Locations 
that will support our concept for the use of rotational forces. 
Overall, our concept does not envision creating new large main 
operating bases that have been the tradition in Europe. We envision a 
very small and limited number of permanently based United States forces 
in the new areas we move to. Only those absolutely required will be 
permanent--the vast majority will be rotational forces brought over for 
specific training and security cooperation objectives.
    We are evaluating what the troop strength in Europe needs to be. We 
have yet to determine the exact number but we have determined that we 
will reduce the number of permanently assigned forces and rely more on 
the use of rotational forces.
    We are just now beginning the process to estimate costs associated 
with our Transformation. We must conduct detailed site surveys as well 
as negotiations with the host nations in order to determine costs. Once 
we have cost estimates developed, we will provide them.
                                 ______
                                 

             Questions Submitted to General Leon J. LaPorte

          Questions Submitted by Senator Kay Bailey Hutchison

                                 KOREA

    Question. Are you giving up training areas under the Land 
Partnership Plan and if so, how will you make up for the loss of those 
facilities?
    Answer. Under the Land Partnership Plan, we are returning many 
heavily encroached training areas that are of very limited use to USFK. 
In return, we have gained guaranteed time on Korean military training 
facilities, at no cost to USFK, to meet our requirements. We have kept 
our primary training areas and the Korean government has agreed to 
remove the encroachments to increase the safety and effectiveness of 
our training. This agreement has already provided great improvements in 
the quality of training and ultimately our readiness.
    Question. You have stated that you would like to increase the 
number of accompanied tours in Korea. What are the military 
construction implications of increasing accompanied tours? Even if 
housing is privatized, won't this require additional infrastructure to 
support more families?
    Answer. Increasing the number of accompanied tours is an important 
part of our overall strategy to enhance, shape, and align our forces in 
Korea. We currently have less than 2,000 family units in Korea. My goal 
is to provide 5,500 family housing units on enduring facilities south 
of Seoul and outside of North Korean artillery range. With the increase 
of accompanied tours there will be a need to increase the supporting 
infrastructure. We plan to fund the overwhelming majority of this 
increase using Build-to-Lease and Military Family Housing Privatization 
Initiatives. The build-to-lease projects will include the needed 
facilities and infrastructure (roads, power, water, waste and 
recreation facilities) improvements associated with the increase in 
accompanied tours. Other requirements not covered by Build-to-lease 
will be met through Land Partnership Plan, Yongsan Relocation and Host 
nation funded construction as USFK consolidates units on enduring 
locations.
    Question. Following recent negotiations between Defense Department 
and ministry of National Defense officials, the press reported that 
Yongsan Army Garrison would be moved to Osan by the end of the year. 
How long do you expect the relocation to take?
    Answer. We have an agreement with the Korean government to relocate 
United States forces out of the capital of Seoul, with all expenses 
paid by the Korean government. The Yongsan facilities will be moved to 
Camp Humphries/Pyongtaek and not Osan Air Base as indicated in the 
question. Once the ROK Government processes the land and funds the 
facility construction, the Yongsan relocation will take approximately 3 
years to complete.
    Question. The Defense Department has submitted a budget amendment 
requesting that several barracks projects scheduled for fiscal year 
2004 be shifted from Camps Casey and Hovey to Camp Humphreys. This 
approach depends on the Korean government fulfilling a promise to 
provide the land for these facilities, which it has not yet acquired. 
Would you describe the steps that have to take place before we are 
ready to begin fiscal year 2004 construction projects on this land?
    Answer. The Status of Forces Agreement establishes the Facilities 
and Areas Subcommittee under a SOFA Joint Committee to consult, make 
recommendations, and execute decisions land and facility decisions. The 
United States Forces Korea Engineer and the ROK Ministry of National 
Defense (MND) Chief of Real Estate are the subcommittee co-chairmen.

The Steps in the Land Grant Process in the Republic of Korea
  --The Facilities and Area Subcommittee (FASC) conducts a joint survey 
        of the proposed area to define boundaries.
  --The FASC develops, negotiates arid forwards an ``Agreed 
        Recommendation'' to the SOFA Joint Committee, stating the size, 
        location, and any proposed land grant conditions.
  --ROK MND acquires the land for USFK as per the 25 April 2003 letter 
        from Minister of Defense to the Secretary of Defense. This 
        letter pledges to purchase all the land required to meet USFK 
        alignment need within United States government timelines.
  --ROK MND acquires the land and establishes a property vacate date.
  --ROK MND coordinates with local government officials to make any 
        required changes to local zoning restrictions for the land.
  --ROK MND completes land acquisition
  --The grant is then approved by the SOFA Joint Committee.
  --ROK MND and USFK exchange real estate documents recording the grant 
        of the property to the United States.
    ROK MND has just completed the purchase and grant of new land to 
USFK for the construction of the fiscal year 2003 Family Housing 
project at Osan Air Base following this procedure. We are confident ROK 
MND will meet our land requirements again next year.
    Question. What concerns have South Korean officials voiced 
concerning environmental clean-up of facilities to be returned to them 
under the Land Partnership Plan? Have environmental concerns halted or 
delayed any land transfers under the Land Partnership Plan? Will the 
Korean government pursue environmental testing of land returned to them 
by the United States Government?
    Answer. Under the Status of Forces Agreement (SOFA) and Department 
of Defense policy, USFK will remedy any contamination that poses an 
imminent and substantial endangerment to human health and safety. The 
Republic of Korea is then responsible to remediate by Korean law prior 
to returning the land to public use. The Land Partnership Plan (LPP) 
was negotiated under this premise and ratified by the National 
Assembly. As part of our transfer process we have worked together to 
establish a system of joint surveys and consultations with the Korean 
government prior to any transfer of land. This process will ensure a 
full understanding of the conditions of the property, and any remedial 
actions to be performed. The joint surveys and consultations fulfill 
all ROK and United States requirements under the SOFA and LPP. This 
process has resulted in the delay of 2 small properties to perform our 
initial surveys and to work through any lessons learned on these new 
procedures. It is our intent to refine this process before we begin the 
sizable land returns planned for the near future. Currently are also 
establishing new guidelines and environmental standards to be met for 
the land that will lie acquired under the LPP for caretaking and 
possible long range turnover back to the Korean government.

                         CONCLUSION OF HEARINGS

    Senator Hutchison. As I told both of you earlier, we are 
going to try to delay Military Construction because of the 
changes that are very clearly being made right now, and we 
would like to wait as long as we can. So we will wait for your 
final review of your Tier I installations. We will certainly 
work with you, as I know a lot is happening right now with 
Korea, and try to have our final bill as late as possible in 
the year.
    Thank you so very much.
    [Whereupon, at 6 p.m., Tuesday, April 29, the hearings were 
concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

</pre></body></html>
